<html>
<title> - EXAMINING THE SAFETY AND SERVICE OF D.C. METRO</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







             EXAMINING THE SAFETY AND SERVICE OF D.C. METRO

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    TRANSPORTATION AND PUBLIC ASSETS

                                AND THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 13, 2016

                               __________

                           Serial No. 114-88

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                    ______
                      
                      U.S. GOVERNMENT PUBLISHING OFFICE 

22-395 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK, MULVANEY, South Carolina       BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Massachusetts              BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
           Katie Bailey, Government Operations Staff Director
                  Ari Wisch, Professional Staff Member
                          William Marx, Clerk
            Subcommittee on Transportation and Public Assets

                     JOHN L. MICA Florida, Chairman
MICHAEL R. TURNER, Ohio              TAMMY DUCKWORTH, Illinois, Ranking 
JOHN J. DUNCAN, JR. Tennessee            Member
JUSTIN AMASH, Michigan               BONNIE WATSON COLEMAN, New Jersey
THOMAS MASSIE, Kentucky              MARK DeSAULNIER, California
GLENN GROTHMAN, Wisconsin, Vice      BRENDAN F. BOYLE, Pennsylvania
    Chair
                                 ------                                

                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts
























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 13, 2016...................................     1

                               WITNESSES

The Hon. Jack Evans, Chairman of the Board, Washington 
  Metropolitan Area Transit Authority
    Oral Statement...............................................     9
    Written Statement............................................    12
Mr. Paul Wiedefeld, General Manager, Washington Metropolitan Area 
  Transit Authority
    Oral Statement...............................................    16
    Written Statement............................................    18
Mr. Christopher Hart, Chairman, National Transportation Safety 
  Board
    Oral Statement...............................................    24
    Written Statement............................................    26
Ms. Carolyn Flowers, Senior Advisor, Federal Transit 
  Administration, Accompanied by Mr. Matthew Welbes, Executive 
  Director, Federal Transit Administration
    Oral Statement...............................................    47
    Written Statement............................................    49
 
             EXAMINING THE SAFETY AND SERVICE OF D.C. METRO

                              ----------                              


                       Wednesday, April 13, 2016

                  House of Representatives,
 Subcommittee on Transportation and Public Assets, 
         joint with the Subcommittee on Government 
                                        Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:28 p.m., in 
Room 2154, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the Subcommittee on Transportation and Public 
Assets] presiding.
    Present from Subcommittee on Transportation and Public 
Assets: Representatives Mica, Amash, Duckworth, and DeSaulnier.
    Present from Subcommittee on Government Operations: 
Representatives Meadows, Walberg, Jordan, Buck, Carter, 
Connolly, Maloney, Norton, and Plaskett.
    Also Present: Representatives Comstock, Hoyer, Delaney, and 
Beyer.
    Mr. Mica. Good afternoon. I'd like to welcome everyone to 
the Committee on Government Oversight and Reform. And we have 
this afternoon a joint subcommittee hearing. The Subcommittee 
of Transportation and Public Assets, which I am pleased to 
chair, and we have our ranking member, Ms. Duckworth; and then 
we also have the Government Operations Subcommittee, which is 
chaired by Mr. Meadows, and Mr. Connolly is the ranking member.
    So I would like to call the meeting to order. And, without 
objection, the chair is authorized to declare a recess at any 
time.
    I would also like to announce the order of business. We'll 
first hear from the chairs and ranking members, and then we 
will go to questions. And first I will introduce the witnesses 
and swear them in. And we welcome them today. In just a few 
minutes we'll get to them. So that's the order of business for 
the joint subcommittee hearing today.
    And I also would like to note the presence of our 
colleagues. We have Congresswoman Comstock of Virginia. We may 
expect--I'm not sure if he's going to be here, but we would 
certainly welcome Congressman Steny Hoyer of Maryland. 
Congressman--is it Beyer?--okay--of Virginia and Congressman 
Delaney of Maryland. I'm not sure if Congressman Delaney is 
here. But I'll ask unanimous consent that they also be allowed 
to participate. And, without objection, so ordered.
    So while they are not members of the committee, we 
appreciate their participation. The order of business is we'll 
go through members of the subcommittee and our OGR committee 
and then recognize those individuals. I plan to yield some of 
my opening statement time to Ms. Comstock. And we'll proceed in 
that order.
    So today I would like to begin by making some remarks, some 
opening statements, and I'm pleased again to welcome everyone. 
This is not a new kids on the block hearing. This is actually a 
continuum of hearings that we've held. I had the opportunity to 
chair the Transportation Committee and we looked at the 
problems with WMATA and Washington Metro during that tenure.
    On the 12th of January, 2015, last year, we had a horrible 
incident, an accident in which an individual lost their life in 
the Metro system. I called a hearing February 13 of 2015, that 
was our first OGR hearing, to review what had taken place. We 
personally visited NTSB. We looked at the problem that was 
identified. We tried to find out what was going wrong at that 
point, what made that incident occur, and then seek 
remediation.
    We did a second hearing, I might remind members, July 21, 
2015. And I'm very concerned that after talking with Mr. Hart 
we'll hear from in a while from NTSB, that some of his 
recommendations, he told me, were passed on from the fatal 
incident in June. I'm not sure if they were taken care of.
    We had the latest incident, we had a shutdown of the system 
for, what, 29 hours, March 16, last month. I gave enough time 
for folks to prepare for this hearing. I wanted to do something 
immediate. We do have some new leadership at WMATA, and I 
wanted to make certain that everyone had time to prepare for 
this hearing.
    We have a Metro system in crisis in Washington, D.C., and 
we need to find out what has gone wrong, what steps have been 
taken to correct the problems. We need to look at the 
management restructuring and we need to look at the financial 
structuring that is currently in place.
    There are few transit systems in the United States that 
receive the subsidization that Metro does in Washington. So we 
need to again hold people's feet accountable and see what's 
wrong, look at what's been done, and then look at solutions for 
the future. That's the purpose of this hearing. That's what 
we're going to do today.
    I'd yield the balance my time to the gentlelady from 
Virginia, Mrs. Comstock.
    Mrs. Comstock. Thank you, Mr. Chairman. Thank you for 
yielding. And I'd also like to thank him for this hearing in 
allowing us in the Metropolitan Washington area to join. This 
is a vitally important issue to my district and to our entire 
region.
    And I appreciate our new manager. And I'd like to emphasize 
so everyone in the audience does understand that Mr. Wiedefeld 
is the new general manager of Metro. And we appreciate his work 
with us. I know when he first came and met with all of the 
Washington area, my colleagues, we all emphasized the cultural 
change.
    And I appreciate how much you are taking that to heart and 
really facing a lot of what you have called the hard truths of 
the system.
    We were together at an event yesterday in Loudoun County 
and I want to say how much people did appreciate again your 
talking about the many hard truths that we have on how we are 
going to have to deal with this on the long road ahead to 
regain that public trust given we've had a dropoff in Metro 
ridership because of the lack of reliability and the increased 
concerns for safety.
    So I do appreciate the March report where you, yourself, 
have publicly called on Metro to accept these hard truths, and 
you noted that safety culture at Metro is not integrated with 
operations and is not well rooted at all levels.
    I know yesterday when you spoke you talked about how you 
are already eliminating a lot of the silos, because what was 
happening with all the direct reports to you, when something 
went wrong everyone looked to somebody else. So you really did 
highlight some of those problems well and acknowledged that 
Metro is actually at this time doing less with more, to quote 
your statement. And in nearly 10 years there have been no 
significant reductions in workforce resulting in redundant 
positions among back office staff that will be abolished 
through attrition where possible.
    I think it is important to note that you've identified sort 
of in the need to modernize this that the back office staff 
that we might not need now needs to be reallocated. We need to 
have management changes there or labor changes, as you noted, 
that we will probably need to change this. We can't have these 
redundant positions that are unneeded soaking up the resources 
that we need to put on the front line. And I particularly 
appreciate that you are putting more safety resources into all 
the stations as you're going through this process.
    The organizational span of control we know is too wide, as 
you noted in the meeting we had yesterday, and it is not 
mission focused. So I appreciate particularly what you have 
been highlighting on the customer focus of Metro and the need 
to have a much more customer-focused workforce and to have that 
be certainly a top priority.
    I was able to go up to the ROCC recently, the Rail 
Operations Control Center, and I know one of the biggest 
concerns that I'd had when I read articles like the 
Washingtonian back in December, which we have discussed, was 
the training process. And I noted in the recent audit that they 
also identified the training as a key problem area. So any way 
we can be helping you as you go through that process of how 
we're going to revitalize and change that training so that we 
have the best people available so we get the most value for the 
money and resources we're putting in here.
    So, again, I think the chairman for allowing us to join you 
here today. I thank the general manager for his work, and 
particularly in recruiting the new safety officer that I 
understand you just announced later, I guess it was a little 
while after we met yesterday, New York City Transit's Patrick 
Lavin to now be our new chief safety officer. And, of course, 
never has there been a time when he is more needed.
    So I appreciate the opportunity to be with my colleagues 
today and look forward to discussing this more.
    Mr. Mica. I thank the gentlelady from Virginia.
    I recognize our ranking member, Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    In the United States rail transit ranks among the safest 
modes of transportation. However, as our famed pilot ``Sully'' 
Sullenberger wisely warned of the commercial aviation industry, 
and I quote, ``It is important not to define safety as the 
absence of accidents. When we've been through a very safe 
period it is easy to think it's because we're doing everything 
right. But it may be that simply we are doing some things 
right, but not everything, and we simply can't relax.''
    Unfortunately, a series of rail accidents in our Nation's 
Capital reminds us of Sully's statement and how it also applies 
to mass transit. Over the past 7 years, nine passengers and 
seven employees have been killed on the Washington Metrorail 
system and many more have been injured. Riders have lost 
confidence in Metro and rebuilding trust will require far more 
from WMATA than simply reminding passengers that driving is far 
more dangerous than riding.
    Of course, Congress must also hold itself accountable for 
creating a weak Federal Transit Administration. Compared to 
FTA's DOD counterpart, the Federal Railroad Administration, and 
especially the Federal Aviation Administration, FTA lacks the 
authority, resources, and experience necessary to make sure 
State safety oversight agencies effectively protect rail 
transit passengers and workers.
    I'm concerned that the entire rail transit sector may be 
out of step with the positive safety trends experienced by 
other forms of transportation, such as by the global aviation 
industry. In aviation we've managed to cut the rate of crashes 
and fatalities in half between 2000 and 2012.
    Moving forward, rail transit must learn from past 
experiences of other transportation industries. It's worth 
remembering the observation from Ms. Deborah Hersman, a former 
chairman of the National Transportation Safety Board, who when 
describing aviation sector's evolution to a more, quote, 
``proactive approach to safety,'' grimly noted that in previous 
aviation eras, and I quote, ``the lessons of accidents used to 
be written in blood where you had to have an accident and you 
had to kill people to change procedures or policy or 
training.'' I fear that her morbid description of aviation's 
past safety culture sounds all too familiar when examining the 
challenges currently facing rail transit.
    Nearly a decade has passed since NTSB investigated the 2006 
derailment of a Chicago Transit Authority train. NTSB's work 
produced a comprehensive of recommendations for CTA and FTA. 
According to the accident report, and I quote, ``This accident 
offers many lessons to both CTA and to rail transit systems 
around the country that we have made a number of 
recommendations to address those issues.'' For example, they 
recommended that FTA inform all rail transit agencies of the 
CTA derailment and, among other things, make sure that all rail 
transit systems have the capability to communicate with 
passengers during an emergency and the ability to remove smoke 
from tunnels, and this was 10 years ago.
    NTSB also found that FTA oversight of the regional 
transportation authority was, quote, ``inadequate and failed to 
prompt actions needed to correct track safety deficiencies.''
    Despite NTSB's clear findings and recommendations produced 
in 2006, it became tragically clear on January 12 of 2015 that 
neither FTA nor WMATA implemented reforms to Metro's 
procedures, policies, or training to prevent similar incidents 
a whole decade later. Metro could not communicate with 
passengers during the emergency. Worst of all, Metro's 
inability to remove smoke from the tunnel had deadly 
consequences. My constituents wonder why we even spend taxpayer 
dollars on NTSB investigations if the lessons are never 
learned, let alone acted on, to prevent future accidents.
    Moving forward, there seems to be bipartisan recognition 
that FTA was set up to fail, and I'm pleased that MAP-21 
strengthened FTA's authority to enforce critical safety rules. 
And I thank the chairman for his leadership with MAP-21.
    However, we cannot relax. We must examine what further 
enhancements must be made to FTA's statutory authorities and 
explore key issues, such as whether FRA would be a more 
effective safety regulator for Metro. Clearly, there are many 
lessons FTA can learn, and FRA and FAA can teach those lessons.
    This committee should play an important role in helping 
reform spread across agencies in all levels of government. We 
must also never forget the bottom line. At the end of the day, 
the millions of Americans that rely on mass transit care very 
little about which Federal agency is overseeing which State 
entity. Passengers simply want peace of mind that their local 
mass transit system will transport them safely to work and back 
home to their families. I look forward to hearing from our 
witnesses about how we can achieve this goal.
    I yield back, Mr. Chairman.
    Mr. Mica. I thank the gentlelady.
    Let me recognize the chair of the Government Operations 
Subcommittee, the gentleman from North Carolina, Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you for your 
leadership on requesting this hearing.
    And thank each of you, many of you for coming back another 
time to address an issue that is important.
    Obviously, the D.C. Metro system transports nearly 200 
million riders annually. These are not just only the hard-
working citizens and Federal employees of the District, but 
people from all across the country who come here to visit and 
look at and enjoy America's treasures and the monuments that 
are here.
    The Washington Metro was once the gold standard of public 
transit, but in recent years it's become synonymous with 
several other words: poor service, delays, and rampant safety 
concerns. And in many ways this just adds to the unfortunate 
situation that WMATA riders find themselves today. This hearing 
focuses on the efforts that WMATA has sought to address some of 
the issues surrounding the safety and delays in general service 
and to work towards making sure that our D.C. Metro system will 
once again deserve the moniker that it is indeed the best 
transit system in the country.
    The Metrorail system recently celebrated its 40th 
anniversary. And while any system that has been in service for 
that length of time is bound to experience its fair share of 
maintenance problems, the WMATA Metrorail system seems to be 
plagued by dangerous and systemic problems. In the past few 
years WMATA has experienced a large number of significant 
accidents and passenger safety events. And certainly we can all 
remember not too long ago, in 2015, when one passenger was 
killed due to the electrical cable fire that sparked an arcing 
incident. That obviously is still under investigation and still 
being dealt with. It resulted in a large amount of smoke-filled 
rail cars.
    I was surprised to find that that event was just not 
unique, it was unique in that we had a tragic loss of life. But 
in talking to some of my staff, I found that we've had smoke-
filled cars and other potential problems even more between that 
event and the one that obviously has brought us here to this 
additional hearing today.
    Following the July--I mean the 2015 incident, NTSB 
undertook an investigation and issued an urgent safety 
recommendation that WMATA needed to address the related 
electrical cables to prevent further fire hazards. Just last 
month an electrical cable at the McPherson Square Metro Station 
experienced the same type of arcing incident that we had 
previously identified. The fact is that this same type of fire 
hazard is continuing to result and a major fire-related 
incidence raises questions as to the effectiveness of WMATA's 
safety efforts and the agency's oversight of WMATA.
    In response, WMATA and the general manager--the new general 
manager, as my colleague pointed out--closed the Metrorail 
system for 29 hours to conduct an emergency safety inspection. 
And this emphasis on safety certainly is a step in the right 
direction for WMATA and to get back on track the Nation's 
premier public transit system. It created unbelievable chaos 
within the city on that particular day. I think many people 
experienced unbelievable hours of traffic jams that they would 
not normally have experienced just because of that shutdown.
    Safety does come first, but it also shows the importance of 
this rail system to this city and the way that we do work. And 
so it is a must that we have to address this.
    Beyond the safety-related issues, WMATA seems to be 
besieged by miscommunication and backbiting sometimes between 
the operational controls represented by the general manager's 
office and the policy controls represented by the WMATA Board. 
This issue was particularly visible in the aftermath of this 
McPherson incident where there seemed to be a public 
disagreement between the Board and the general manager as it 
relates to the action necessary to get WMATA back in a state of 
good repair.
    So I look forward to each one of your testimonies today, 
working with the witnesses to not only address the safety 
concerns that have really affected WMATA, but also to create a 
unified face for a system that we need to help restore the 
confidence and trust for those that use the system each and 
every day.
    So I'd like to thank our witnesses for attending today's 
hearing, for taking to the time to work with this committee to 
ensure that when WMATA celebrates its 50th anniversary it can 
do so and that we can celebrate it as being the best transit 
system in America.
    And with that, Mr. Chairman, I yield back.
    Mr. Mica. I thank the gentleman.
    Let me first now recognize the ranking member of the 
Government Operations Subcommittee, the gentleman from 
Virginia, Mr. Connolly.
    Mr. Connolly. If I can do a unanimous consent before my 
time starts, Mr. Chairman, I have a statement to be entered in 
the record, I ask unanimous consent, on behalf of our 
colleague, Chris Van Hollen of Maryland, who has been a 
longtime supporter--and sometime critic--of Metro and been a 
great partner.
    Mr. Mica. Without objection, so ordered.
    Mr. Connolly. I thank the chair.
    Mr. Chairman, I appreciate the opportunity to revisit the 
safety and service challenges faced by the Washington Metro 
system. I've spent 21 years of my life working on Metro-related 
issues, first as a member of the Fairfax County Board of 
Supervisors, then as chairman, and now as a Member of this 
body. No one is more disheartened than I with the current 
unacceptable state of affairs.
    In the wake of January 2015 tragedy at L'Enfant Plaza, we 
held two hearings in which I said Metro was facing multiple 
crises, a crisis in leadership, a crisis in safety, a crisis in 
commuter and stakeholder confidence, and a crisis in funding.
    Let me start with the most significant improvement, which 
is the November hiring of General Manager Paul Wiedefeld. His 
hiring was long overdue as Metro went 10 solid months without a 
permanent general manager. I think most observers agree he is 
proving to be the right leader at the right time to help get 
Metro back on the right track.
    I rode the Orange Line with Mr. Wiedefeld through northern 
Virginia in January so he could hear firsthand from riders 
about their safety and reliability concerns. And because the 
gods were on our side that day, we encountered two cracked 
rails in the process, leading to many delays.
    Mr. Wiedefeld recently issued a customer accountability 
report in which he lays out the hard truths about safety, 
reliability, and basic customer service, coupled with more than 
50 actions he and the agency will begin to take to address 
those. Of course, that's in addition to the urgent safety 
recommendations made by the NTSB as part of its ongoing 
investigation into the L'Enfant Plaza tragedy.
    In addition, the FTA, which conducted its own safety 
management inspection, now has assumed safety oversight for 
Metro, has 91 of its own corrective actions.
    I know the new general manager agrees that safety ought to 
be priority number one. Since our last hearing, two additional 
incidents have rattled riders and further eroded confidence. 
First, a train derailed in the early morning hours of August 6 
on the Orange, Blue, Silver Lines between Federal Triangle and 
Smithsonian. The train, which was not carrying passengers yet, 
derailed due to a defect in the rail line, a wide gap, 
previously detected, but misreported and unfixed.
    Then Metro suffered a gut punch on March 14 with another 
electrical arcing incident, this time on the Orange, Blue, 
Silver Lines at McPherson Square. Thankfully, the incident also 
occurred before the system opened, but was a disturbing safety 
shortfall that should have been identified and fixed 
immediately following the tragedy at L'Enfant Plaza.
    It would seem Mr. Wiedefeld shared that assessment, 
prompting him to take the extraordinary and unprecedented step 
of closing the entire Metro system for 24 hours in order to 
allow for emergency inspection of all such cables. Though it 
created a significant challenge for the region's commuters and 
the Federal Government, which encouraged employees to use 
unscheduled leave and telework for the day, I support the 
general manager's decision on that one-day closure, although I 
caution against prolonged closures in the future. It served as 
an overdue shot across the bow to the entire workforce at Metro 
that a culture of mediocrity is no longer acceptable.
    What has been particularly frustrating with each of the 
safety investigations is the revelation that Metro does, in 
fact, appear to have good policies and procedures in place, 
they are just not followed, they are not implemented, something 
I know Mr. Wiedefeld aims to rectify.
    In addition, shuttering the system serves as a welcome 
message to riders, if you can call it that, welcome that is, 
that somebody is finally taking their safety and reliability 
concerns seriously and demanding accountability within the 
system.
    As part of his internal assessment of Metro, I have 
encouraged Mr. Wiedefeld to make significant personnel changes, 
and I'm pleased by yesterday's announcement about the hiring of 
a new chief safety officer. Further, those responsible for 
allowing these issues to languish should step down or be 
removed.
    Given all of this, it should be no surprise that Metro 
ridership has declined by 6 percent and 12 percent on weekends. 
In response, Metro hired a consultant to conduct a top-to-
bottom review of its operation. The McKinsey & Company report 
offers a blueprint for both strategic short-term fixes that 
could be applied immediately along with more long-term 
recommendations.
    My time is running out, Mr. Chairman, in this opening 
statement, but I know we will discuss financing as part of this 
hearing, and I will hold off on that part of my statement until 
we get to that round. Thank you.
    Mr. Mica. I thank the gentleman.
    And members will have 5 legislative day for anyone who 
wishes to submit a written statement. In agreement with the 
minority, that is so ordered.
    Mr. Mica. We are now pleased to turn to our panel of 
witnesses. And again I want to welcome you.
    Let me first introduce the Honorable Jack Evans, chairman 
of the Board of Washington Metro Transit Authority.
    Mr. Evans.
    We have Mr. Paul Wiedefeld. He is the new general manager 
of the Washington Metropolitan Area Transit Authority.
    Welcome, sir.
    We've got the Honorable Chris Hart. He's chairman of NTSB, 
National Transportation Safety Board.
    And we have Ms. Carolyn Flowers, senior advisor at the 
Federal Transit Administration. And I guess you're new to that 
position, but we also have accompanying you Mr. Matthew--is it 
Welbes? And he is executive director of Federal Transit 
Administration.
    And we may call on you because of your expertise.
    So I'd like to welcome all of our witnesses.
    The order of business is such that we allow you about 5 
minutes. Some of you have been here before, some of you 
haven't. We'd like you to summarize your testimony, hopefully 
in that time. If you'd like additional information or 
statements or data to be submitted, just ask through the chair 
or a member and we'll be glad to do that.
    Now, this is an investigations and oversight committee of 
Congress, so we do swear in all of our witnesses. So I'd like 
you to stand if you would, please. Raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give before this committee of Congress is the whole 
truth and nothing but the truth?
    Let the record reflect that all of the witnesses answered 
in the affirmative.
    Again, I want to welcome our chair of WMATA, Mr. Evans, and 
we'll recognize you first.

                       WITNESS STATEMENTS

                    STATEMENT OF JACK EVANS

    Mr. Evans. Thank you. Well, good afternoon. My name is Jack 
Evans, and I'm chairman of the Board of the Washington 
Metropolitan Area Transit Authority, better known as Metro. And 
I also for the last 25 years have represented Ward 2 on the 
Council of the District of Columbia. And I want to thank you, 
and appreciate the opportunity to testify before you today on 
what is the most critical issue facing our region.
    And, first, Chairman Mica, I want to acknowledge your 
enormous commitment and leadership in the transportation field 
throughout this country.
    And, Chairman Meadows, on behalf of the residents of the 
District of Columbia, I want to thank you for coming to the 
State of the Union speech by our Mayor, State of the District 
speech, And we appreciate your support of the District.
    And our Ranking Member Duckworth, as a graduate of the 
Elliott School of International Affairs at The George 
Washington University, we know you're very familiar with the 
District of Columbia.
    And certainly last, Ranking Member Connolly, I want to 
thank you for your constant support and advocacy for Metro.
    I want to thank all of you. And certainly I want to 
recognize and thank my Congresswoman, Eleanor Holmes Norton, 
who has done a fabulous job representing our region here.
    I want to give you a little background so you know where 
I'm coming from here. I moved to Washington, D.C., as a summer 
internal in 1976. I had an opportunity to ride Metro when it 
first opened. And you've heard my comment before, it was a 
shining new Metro system reminding us all of ``The Jetsons,'' 
remember the TV show, George Jetson, and there it was.
    I moved here in 1978 permanently, rode Metro throughout the 
1980s and 1990s. In 1993 joined the Board of Metro and served 
on the Board from 1993 to 1999, twice as chair of the Board.
    When I left Metro in 1999, the end of 1999, it was a 
shining example of regional cooperation and, as has been 
mentioned, was the envy of transit systems throughout the 
country. I rejoined the Board in January of last year and I was 
outraged--and I want you to know this--at what I had found. 
Fifteen years after I left the system the finances were in 
chaos and the operations were just behind it.
    What happened? How did we get here?
    First, we have to realize something, I want everybody to 
recognize this. Metro is all of us. It's not just Paul and I. 
Metro is everyone in this room. And we have to take 
responsibility for this system and get it fixed. Because we 
talked about who rides Metro, with 200 million people ride 
Metro a year, District, Virginia, Maryland residents. Twenty-
two million people visit this region every year. And 35 percent 
of our riders are Federal workers. Fifty percent of the Federal 
workforce rides Metro. That's all of you, that's all of us, and 
it's an important thing to remember for later in my comments.
    So what are we dealing here? We're dealing with operation, 
and Paul is going to talk about that. He's going to talk about 
how we got to where we are and what we're going to do to fix 
it. But I can say one thing. We have years of neglected 
maintenance, and the idea of fixing this by working 3 hours at 
night and on the weekends is not working. We need a better 
plan.
    Now, the finances. Even if this system were operating like 
a clock, it will never survive under the financial structure 
that we have in place right now. Quickly, we get our money from 
two areas, $1.8 billion budget, $90 million from the farebox, 
$900 million from the region. Okay?
    Right now what I'm dealing with, I have a $2.5 billion--let 
me repeat that--$2.5 billion unfunded pension liability 
problem. Next year's budget, starting out of the box we're $100 
million short because we balanced this year's budget with $100 
million of one-time money. Add on to that increasing costs, 
we're $150 million dollars short right out of the box.
    And I have an $18 billion deferred capital maintenance 
problem. This is the maintenance that Paul is going to talk 
about that needs to be done. It is the new cars that we have to 
buy. And it's systematic problems like the Roslyn bottleneck 
that prevents us from getting trains across the river and into 
the District. All has to be fixed.
    So what are our solutions here? Number one, we need the 
Federal contribution on the operating side. We need $300 
million from the Federal Government. How do I get that number? 
$900 million divided by 3, $300 million, each jurisdiction is 
giving that. The Federal Government needs to do that as well. 
Remember, you paid for two-thirds of the system. You put $6.9 
billion into the system. You have to help us, otherwise we 
can't survive.
    Secondly, we need a regional funding source--and bear with 
me as I run out of time--we need a regional funding source. 
We've been talking about it since 1993 when I first joined the 
Board. This committee had a hearing, here it is, 2005. You 
spent your whole time talking about a regional funding source 
and nothing ever happened. I need a billion dollars a year from 
the region. And if the region won't do it, let me just float 
this idea with you all, the Tennessee Valley Authority, a 
Federal agency set up by all of you in order to collect money.
    So let me conclude with this. I've been the finance chair 
in the District of Columbia for 17 years, okay? We were here in 
1995 with a city that was bankrupt. Without Federal 
assistance--and Eleanor Holmes Norton was the leader on this, 
and you remember this--without Federal assistance, we would not 
have made it. The Federal Government assumed a $10 billion 
unfunded pension liability that the District of Columbia had 
and paid for our prisons and our judicial system, giving us the 
breathing room we needed as a city to survive and become what I 
would say is one of the most dynamic cities in America today 
who has the best financial picture.
    So that's what I'm asking you for today. We are in this 
together. We need your help. So thank you for the opportunity 
to testify.
    [Prepared statement of Mr. Evans follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Mr. Mica. I thank the gentleman.
    Let me now recognize the general manager of WMATA, Mr. 
Wiedefeld.
    Welcome, and you're recognized.

                  STATEMENT OF PAUL WIEDEFELD

    Mr. Wiedefeld. Good afternoon, Mr. Chairman. Thank you for 
having me today. I'll be very brief.
    But since I've come on board 4 months ago a big part of my 
time has been spent reaching out to the stakeholders, the 
customers, the employees, particularly the frontline employees, 
elected officials, and business community, and I've gotten a 
firsthand experience from using the system, obviously from 
listening to them, and then basically walking the tunnels, 
walking the bus garages, and maintenance facilities. I've 
learned a lot, I've learned a number of the issues that we 
have, and I've learned about a number of opportunities we've 
had.
    Unfortunately, during this time I've also had to make some 
very difficult decisions, the first one dealing with the 
blizzard that we had that hit the region and second one is the 
cable fire at McPherson Square. Both of those decisions were 
driven by my commitment to safety for our customers and our 
employees, and that's why I made those decisions.
    In the near term my priorities remain to be safety, service 
reliability, and getting our fiscal house in order, as the 
chairman just mentioned. Last month, as was also mentioned, I 
put out a report, a customer accountability report, which 
basically outlines a number of actions, just based on my short 
time here, of things that I want to do and things I've heard 
and what we learned from McKinsey and other sources.
    The purpose of that report is to be transparent, but more 
important is to be accountable to the public and for the 
managers to be accountable, and it's basically setting that 
bar, and that's exactly why that was done, and it will continue 
to grow.
    And although the actions I've taken I think reflected a 
different management approach and the start of a change of 
culture here, there is still quite a long way to go, and this 
is where I need the stakeholders in this region to basically 
support me to get there.
    I think we need to step back and look at what we've been 
doing in terms of particularly the maintenance of the system. 
We've gone from crisis to crisis. We tend to deal with things 
one off and that just cannot go on. We have created a program 
to try to do the improvements which basically were not getting 
done. It is inefficient. We are impacting our customers day to 
day, on weekends, and we're suffering from that.
    So I will be coming out in the very near future with a new 
program to get at these issues and get the system up to the 
state it should be, and then we'll continue to maintain it from 
there. The solutions won't be easy, and so I'm not going to 
sugarcoat it, that is for sure, but I think there are things 
that we have to do to get to where we want to be.
    Let me close by saying last month we celebrated the 40th 
anniversary of the system and it is something to celebrate for 
sure. Over the last 40 years Metro has played a central role in 
transforming this region into one of the most dynamic regions 
in the world for sure. It's shaped the land use, it's become 
the backbone of our economic development, it's played a central 
role in meeting the mobility needs of residents and visitors 
alike, moving 1.2 million passengers a day, and it is 
supportive of our metagoals, particularly in the air quality 
arena.
    In short, Metro has been and will remain the critical 
economic growth and quality of life in this region, will 
support it. But it is therefore time for us to be realistic to 
address the challenges we are facing as a region to make the 
Metro system great again, challenges that, in my opinion, must 
be met given Metro's vital importance to the region today and 
tomorrow.
    Thank you for your attention. I do want to take a moment, 
though, to thank our regional congressional delegation for 
their support. I also want to thank the chairman, Chairman 
Mica, Congressman Connolly, and Congresswoman Comstock, for the 
help in supporting the efforts to reach the agreement on the 
cellular phone installation. So I really do appreciate that.
    I'll be glad to answer your questions later.
    [Prepared statement of Mr. Wiedefeld follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    Mr. Mica. Thank you. And we'll hold questions until we've 
heard from all the witnesses.
    Mr. Hart is the chairman of the NTSB.
    Welcome back, and you're recognized, sir.

                 STATEMENT OF CHRISTOPHER HART

    Mr. Hart. Thank you. Good afternoon, Chairman Mica, 
Chairman Meadows, Ranking Member Duckworth, and Ranking Member 
Connolly, members of the subcommittees, and others who are 
present here today. Thank you for inviting me today to testify 
on behalf of the NTSB.
    The NTSB has completed its investigation into the January 
12, 2015, electrical arcing and smoke incident near WMATA's 
L'Enfant Plaza Station that has been referred to several times 
today. The board is expected to approve the final report at its 
public meeting on May 3. As I reported to you last year, our 
investigation revealed that some electrical connections 
associated with power to the third rail were improperly 
constructed and installed without sealing sleeves. The absence 
of sealing sleeves can create the potential for electrical 
short-circuiting, which results in fire and smoke events in the 
system.
    Nearly a month after the L'Enfant Plaza accident we 
examined electrical components from a smoky vent in the tunnel 
near Courthouse Station and found that those cable connections 
were also missing sealing sleeves.
    Most recently, we were informed by WMATA last month of an 
arcing event at the McPherson Square Station and we were 
invited to view some of the damaged electrical components. We 
observed that the damage to the traction power electrical 
components were similar to that of the L'Enfant Plaza Station 
accident. One cable connector assembly and portions of the 
cables had been vaporized by the intense heat, as was a portion 
of the third rail cover board similar to the L'Enfant Plaza 
Station accident.
    In June 2015, we recommended that WMATA inspect the cable 
connector assemblies and ensure that they are constructed and 
installed in accordance with WMATA's specifications, which 
includes sealing sleeves. It is clear that the cable connector 
assemblies at the McPherson Square Station had not been 
modified as a result of our June 2015 recommendations.
    What is unclear is whether these connectors had been 
inspected, and if so, how that inspection was conducted and 
recorded. We are anxiously awaiting WMATA's report on its 
progress in implementing this recommendation.
    Since 1982, the NTSB has investigated 13 accidents 
involving WMATA. More than half of those investigations have 
occurred since 2006. Or L'Enfant Plaza investigation has 
illustrated once again that rail transit accidents continue to 
cause injuries and deaths and that more effective oversight of 
rail transit is necessary. That is why we included improved 
rail transit safety oversight in our 2016 most wanted list of 
transportation safety improvements.
    Inadequate transit safety oversight can result in many 
types of safety hazards that are allowed to develop and persist 
and as such constitute systemic hazards. The physical hazard 
that led to the L'Enfant Plaza Station accident is present 
systemwide. That is why the NTSB issued urgent safety 
recommendations to the Secretary of Transportation in September 
2015 urging that DOT seek authority from Congress to designate 
WMATA as a commuter authority so that the Federal Railroad 
Administration can exercise direct safety oversight.
    The Secretary's response to our recommendation acknowledged 
that the Tri-State Oversight Committee, or TOC, lacked 
sufficient resources, technical capacity, and enforcement 
authority to provide the level of oversight needed to ensure 
safety at WMATA. However, he disagreed with our recommendation 
to transfer safety oversight of WMATA to the FRA and instead 
determined that the FTA, the Federal Transit Administration, 
would begin increased oversight and would directly enforce and 
investigate the safety oversight of WMATA.
    While we can all agree that the current oversight of WMATA 
by the TOC is insufficient, we are concerned that the FTA's 
safety oversight for this rail transit property is not 
equivalent to that provided for other similar properties or 
heavy commuter rail. FTA has very limited ability to oversee 
WMATA effectively.
    Our concerns are substantiated by the fact that the FTA has 
no prior experience in direct safety oversight or as a State 
safety oversight agency, has limited staff to carry out the 
function, and does not have the authority to levy civil or 
individual penalties in response to safety deficiencies.
    Every day millions of people use rail transit to go to or 
from work, home, or other destinations. In the case of WMATA 
Metrorail, ridership is critical to the effective operation of 
all branches of the Federal Government, as evidenced by the 
recent unprecedented shutdown of the system for 1 day. That is 
why it is so important for WMATA and rail transit systems 
nationwide to be subject to competent oversight bodies that 
have standards and rules along with the power to enforce those 
rules. Although each system has unique equipment, operating 
environments, and challenges, all need strong safety oversight 
to continue safe operations.
    Thank you for providing the opportunity to testify before 
you today. I look forward to responding to your questions.
    [Prepared statement of Mr. Hart follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






    Mr. Mica. Thank you, Mr. Hart.
    And I'll recognize Ms. Flowers with FTA at this point.
    You're recognized.

                  STATEMENT OF CAROLYN FLOWERS

    Ms. Flowers. Chairmen Mica and Meadows, Ranking Members 
Duckworth and Connolly, and members of the Committee, thank you 
for inviting me to discuss the Washington Metrorail system.
    At the FTA, the safety of public transportation passengers 
and workers is our single highest priority. Transit is among 
the safest ways to travel in communities throughout this 
country. However, here in Washington, D.C., serious incidents, 
crashes, and safety lapses have highlighted the need for change 
and improvement.
    In 2012, with the passage of MAP-21, Congress granted FTA 
the authority to oversee the safety of public transportation 
through the existing State safety oversight agency structure. 
Since then, FTA has reorganized and significantly strengthened 
safety staffing and oversight functions that take on the new 
Federal oversight role.
    Each transit agency is still responsible for inspecting its 
own infrastructure and conducting the necessary training to 
keep their services safe. FTA oversees the State Safety 
Oversight Agencies, or SSOAs, which in turn provide day-to-day 
oversight of real transit safety. That leaves FTA with the 
ability to shape nationwide safety standards, to issue 
directives, and to step in where those SSOAs are not able to do 
so.
    After the tragic January 2015 L'Enfant Plaza smoke 
incident, FTA exercised our safety authority by conducting a 
safety management inspection of Metrorail and Metrobus, which 
resulted in 54 safety findings. Our inspection report 
identified numerous deficiencies and operational concerns.
    In October 2015, Secretary Foxx instructed FTA to 
temporarily assume the responsibilities of the local SSOA, the 
Tri-State Oversight Committee, or TOC, which has lacked 
adequate enforcement authority.
    Since last fall, FTA's been on the site at Metro providing 
direct safety oversight of Metrorail. Our safety team is 
comprised of subject matter experts from across the Department. 
This team has transit industry knowledge and expertise, 
technical ability, and enforcement power to improve Metrorail 
safety.
    Over the past several months, on a daily basis, we have 
conducted inspections and investigations and verified 
corrective actions. As of last week, FTA had conducted 107 
inspections that covered track, Rail Operations Control Center, 
vehicle and systems maintenance, automatic train control, and 
traction power. During these inspections we identified 229 
defects, requiring 66 remedial actions by Metro. In addition, 
we are directing 140 open investigations.
    In late March, FTA initiated a three-part safety blitz, 
which is an intensive, targeted series of inspections that 
focused on three areas: red signal overruns, track integrity, 
and rail vehicle security.
    The FTA role is temporary. FTA's role in direct safety 
oversight is temporary. It is critical that Maryland, Virginia, 
and the District of Columbia join together to create an SSOA 
with adequate authorities and resources. Secretary Foxx urges 
in actions and words that the three jurisdictions come together 
with all haste to create the Metro safety commission that the 
local jurisdictions first outlined 6 years ago.
    In closing, as the former CEO of the Charlotte Area Transit 
System and the COO of the Los Angeles Metro system, I know that 
it is a challenge to balance safety and service demands, but 
keeping people safe is not a choice. For our part, FTA took 
action to focus on Metrorail safety condition as both an urgent 
and critical problem requiring immediate and decisive action. 
FTA's oversight activities focus on Metrorail's serious safety 
needs for the short term, and we continue our work with the 
local jurisdictions to establish a new and effective SSOA for 
the long term.
    Thank you for calling this hearing. And together with FTA's 
executive director, Matt Welbes, I look forward to answering 
your questions.
    [Prepared statement of Ms. Flowers follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
    
    Mr. Mica. I thank all of our witnesses for their testimony.
    I'm going to dive right into questions. I want to separate 
my questions into two part. First, I want to talk about the 
incident of January 12, our subsequent hearing on February 13. 
Then I want to look at the overall picture of Mr. Evans said 
the crisis and chaos in Metro.
    So, first of all, after the incident we held a hearing. Mr. 
Hart and I went down personally, inspected the cable, we 
identified what we thought was the problem. You've identified 
it again here today. Then you told me you gave recommendations 
to WMATA by June. Is that true?
    Mr. Hart. Correct.
    Mr. Mica. Okay. And I just heard you, Ms. Flowers, you've 
given a number, you've verified deficits, safety deficits. When 
did you first give them? Did you go in--do you recall when you 
went in after the January death?
    Ms. Flowers. So we went in June of last year.
    Mr. Mica. You gave them to them in June last year. Okay, 
we've got two nodding heads here.
    I have a problem because the current WMATA director, 
administrator, manager is not there then. But the first thing 
you would have done--and I'm not the sharpest electrical 
engineer on the block--is go in and change out those cables 
that we saw were shorted that didn't have proper seals and that 
were arcing. Can you tell us what was done, Mr. Acting General 
Manager or Mr. Evans?
    Mr. Wiedefeld. I can tell you, 65 percent of them are done.
    Mr. Mica. Were they done after June, and to what date?
    Mr. Wiedefeld. That's to date.
    Mr. Mica. To date, okay. But they're still not done?
    Mr. Wiedefeld. That's correct.
    Mr. Mica. And we think the arcing was also the problem of 
the smoke and why you shut it down March 16, right?
    Mr. Wiedefeld. Right. I'm not sure yet----
    Mr. Mica. So there's about 35 percent undone of the cables. 
Okay.
    Mr. Wiedefeld. Yes.
    Mr. Mica. I got involved in this after that because we 
found out what we asked you to do years ago and promised you 
$150 million, $1.5 billion to get the communications and some 
other things, that's our contribution to capital improvements, 
was only done at the station. That's why we probably lost that 
life, because they couldn't communicate.
    You've been there now a short time. Is the communications, 
wireless communications agreement finalized to finish it?
    Mr. Wiedefeld. Yes, it is.
    Mr. Mica. It is, okay, and that's underway. When do you 
anticipate that that would be done?
    Mr. Wiedefeld. What we're doing is we're doing a 1-mile 
section in a tunnel as a pilot.
    Mr. Mica. When is the finish date?
    Mr. Wiedefeld. What we are going to do is after we see how 
we are trying to do that, then we are going to come out with 
the schedule based on that, because we don't----
    Mr. Mica. You think it will take a year. You don't know. 
You're going to see what it takes to do a mile at a time.
    Mr. Evans. No, I'm going to do--we're going to do a mile as 
a pilot.
    Mr. Mica. With 118 miles that we have.
    Mr. Evans. No, we're going to do a mile as a pilot, and 
then we're going to come out with a schedule based on what we 
learn from doing it for that mile.
    Mr. Mica. We need to restore public confidence. They can 
get-- people can get on that and have no rescue means. At least 
they have their personal communication device that doesn't work 
within the tunnels. It may work in the stations, as we saw, but 
somebody died.
    Okay, so that needs attention, that's part of what I wanted 
resolve and threatened to withhold money if we didn't get 
something done.
    This money game is mind-boggling. I asked what's WMATA's 
unliquidated balance in open grants and money coming from the 
Federal Government as of the 18th of March. It's $783 million. 
It's not like they don't have the money. Last year, in 2015, 
they had $485 million available. They had the money available, 
what they have is incompetence, not to get the job done.
    Now, you're new kid on the block and we're counting on you. 
But I want people fired, I want something done. Now, we got--
you got the communication system underway. We've got to resolve 
the arcing. The arcing causes smoke and people die and the 
thing is in chaos. You closed it down for 29 hours. You have 
falling ridership and you have increasing operational costs, I 
see here.
    Okay, let me--this burns me.
    Now, this caused me to go deeper into your finances. I 
heard you, Mr. Evans, and you gave a nice presentation. I was 
here in 1995 when we put the control board in, we disbanded the 
District government. You were running three-quarters of a 
billion dollars in debt--three-quarters of a billion dollars in 
debt. You add all kinds of unfunded liabilities, pensions, 
everything. It was the most screwed-up mess I've ever seen in 
business or government.
    What's your current surplus in the District? What are you 
running, half a billion, $500 million?
    Mr. Evans. Right now we have $2.17 billion in our reserve 
funds and we run about----
    Mr. Mica. Okay, well, let's step up to the plate. You're 
dealing with people who are broke. I'm telling you I am not 
going to bail you out. I am not going to support bailing out 
the District of Columbia.
    Mr. Evans. You're not bailing us out.
    Mr. Mica. It is bailing out. Look at the operational. I 
compared Chicago, 75 percent of the capital funds come from 
local and State money. In SEPTA, Pennsylvania, 61 percent, 
WMATA 44 percent. Nobody gives more money for capital 
improvements, nobody has more money available than you all have 
available. So, again, please don't come here. There's lots of 
money available. What we don't have--we have money available, 
we don't have leadership, we don't have management.
    And these people need to step up to the plate. Virginia 
needs to step up to the plate, Maryland needs to step up to the 
plate, and the District with that huge surplus now needs to 
step up to the plate. You sure as heck ain't going to get it 
out of my folks. And the improvements can be made.
    So no other system in the country has the kind of resources 
into it. And if you to divide, don't divide by three, let's 
divide by four and have everybody step up to pay for it.
    So I'm not making--I'm not here to make up for bad 
management. I'm not here to make up for a poor safety record. 
I'm not here to make up for a lack of action. And you, who was 
it, was it the new general manager, when I saw the liability, 
you mentioned the liability for pension and unfunded benefits 
in a multibillion area. Isn't that true?
    Mr. Evans. $2.5 billion.
    Mr. Mica. Yeah, that's huge, that's huge. That also needs 
to be addressed and it doesn't need to be bailed out by the 
Federal taxpayer.
    So I've spoken my piece. If you know me, I do that, and 
then I act, and I will act to make certain that we get this in 
order.
    I wish you well, Mr. General Manager. We'll work with you, 
we'll give you all the tools. You have money available. You 
need to get in there, fire people, I think you're doing some of 
that, and get that place in order.
    With that, I yield to the ranking member.
    Ms. Duckworth. Thank you, Mr. Chairman. And I, again, want 
to thank you for holding this very important hearing. I'd like 
to yield the remainder of my questioning time to the gentleman 
from Virginia, Mr. Connolly.
    Mr. Connolly. I thank my friend. And I thank Mr. Mica for 
his passion. But as that passion cools he has asserted Virginia 
has to step up to the plate. And I would remind my friend he 
doesn't want a burden on his people, he said. Well, I don't 
want a burden on mine. And in Virginia we pay the subsidy, my 
local taxpayers. So when you say a bailout, my constituents 
hear something quite different. And I hope you will keep that 
in mind. As you care about your people, Mr. Beyer, Mrs. 
Comstock, and I care about ours, because we foot the bills in 
Virginia, not the State. And we're quite sensitive to the fact 
that we already pay high subsidies and we already have one of 
the highest farebox recovery rates in the country because we 
don't have a dedicated source of revenue and the Federal 
Government does not provide operating subsidies.
    Mr. Evans. Not a penny.
    Mr. Connolly. Not one penny. It is the only compact member 
that doesn't provide a penny.
    Do you want me to yield, Mr. Chairman?
    Mr. Mica. Just two things. I'll put in the percentage that 
is paid for capital. And then I think----
    Mr. Connolly. Capital is different than operating.
    Mr. Mica. Well, most of their problems are capital.
    Mr. Connolly. No, clearly their problems are operational, 
Mr. Chairman.
    Mr. Mica. Yeah. And, again, you can see what is put in. 
Operational, there is about 2 percent from the District. And I 
will give you the fact that some other jurisdictions we found 
have as much as 6 percent, but they take certain money and put 
it into operations that we've allowed. And we've done that also 
in times of financial distress.
    Mr. Connolly. Reclaiming my time. Thank you, Mr. Chairman.
    I would just say, you know, where you stand is where you 
sit. Where my constituents stand is that the Federal Government 
gets a free ride every day on Metro, because it doesn't pay 
operating subsidies. And as Mr. Evans indicated, that costs our 
jurisdictions in Virginia about $300 million a year. And You 
can make all the hay you want out of the fact that the Federal 
Government provides 150 million in operating capital, and that 
did not come without strings. That had to be matched dollar for 
dollar by the three jurisdictions over and above their 
operating subsidies and we had to give up voting seats on the 
governing board of Metro.
    And by the way, the Federal representatives are not limited 
to only capital issues when they vote. They get a free vote on 
the operating side of the house and they don't pay for it. So 
it's a matter of perspective.
    Having said that, I certainly associate myself with the 
remarks, your remarks, Mr. Chairman, about past management and 
about operating difficulties and holding people accountable. 
And I am deeply concerned that given the depth of the problems, 
that people, frankly, examples are going to have to be made out 
of some people, and I don't just mean the senior management. 
And I think the chairman and I share that view. It's gotten to 
that point that if we're going to reassure public confidence we 
have to hold people accountable at every layer of the 
organization, because that is one of the crises we face, public 
confidence, for good reason.
    Mr. Hart, in your recommendations inter alia, you 
recommended that the safety oversight be done by the FRA, not 
the FTA. Is that correct?
    Mr. Hart. That's correct.
    Mr. Connolly. Why did you arrive at that conclusion?
    Mr. Hart. We were looking for an immediate solution. The 
FTA can eventually do the kinds of things the FRA does now. For 
example, the FRA has rules to have people to inspect to see 
whether the rules are being met, and they have people to 
enforce if the rules are not being met. The FTA can have that 
eventually but doesn't have it today. That's what we're looking 
for as an immediate solution, an immediate interim solution to 
respond to the reality.
    Mr. Connolly. Ms. Flowers, you're not the director of the 
FTA, you're a senior advisor?
    Ms. Flowers. I'm currently the lead at FTA.
    Mr. Connolly. The lead.
    Ms. Flowers. Yes.
    Mr. Connolly. And you came with Secretary Foxx from 
Charlotte?
    Ms. Flowers. I came after Secretary Foxx.
    Mr. Connolly. After. So do you have the capability that the 
NTSB recommended?
    Ms. Flowers. We feel that we do have the capability. We 
agree with NTSB that action was needed to improve oversight of 
WMATA and that----
    Mr. Connolly. Ms. Flowers, I'm running out of time. So 
forgive me. I'm not trying to be rude. But we had deaths. We 
had accidents. We had people injured. Mr. Hart's NTSB said, 
Look, no fooling around. Safety is number one. We need the FRA 
and its resources and capabilities because the FTA doesn't have 
it right now.
    Ms. Flowers. You gave us statutory authority and oversight 
of public transportation. And you also, in the FAST Act, 
strengthen our authority----
    Mr. Connolly. Ms. Flowers, I'm very well aware of what we 
did in the statute. I'm talking about capability today. And 
that's what the NTSB--that's what it took cognizance of which 
is why it didn't recommend that your agency have safety 
oversight. And yet, the Secretary decided to overrule or ignore 
that recommendation.
    Ms. Flowers. Sir, we have, on our staff, regulatory 
experience from FRA and FAA. Our head of----
    Mr. Connolly. Regulatory?
    Ms. Flowers. Yes. From regulatory agencies who have safety 
experience at FAA and FRA.
    Mr. Connolly. What's that got to do with whether you've got 
the ability to hone in on, you know, cable covers that could 
arc? Who cares about regulatory authority?
    Ms. Flowers. We have just completed a safety blitz of our 
track inspection on WMATA, and we've done verification----
    Mr. Connolly. Oh, you did?
    Ms. Flowers. Yes.
    Mr. Connolly. So on the day, Mr. Wiedefeld, what was the 
day we shut down for the whole 29 hours?
    Ms. Flowers. March 16.
    Mr. Wiedefeld. March 16.
    Mr. Connolly. March 16. The day before the holy day. So--
St. Patrick's Day. Did you have people in Metro inspecting the 
cables along with Metro?
    Ms. Flowers. When we did our safety management inspection, 
we did identify issues with----
    Mr. Connolly. No, ma'am. My question--that's not my 
question. On the 16th of March, for that 29-hour period, since 
you've got the responsibility, God knoweth why, since it should 
have been to FRA, but Secretary Foxx decided to ignore or 
overrule that recommendation, were you in the tunnels 
inspecting these cables that could arc, smoke and cause deaths 
and injury?
    Ms. Flowers. We were not in----
    Mr. Connolly. You were not in the----
    Ms. Flowers. But----
    Mr. Connolly. So one of the most important safety issues 
we're facing in an unprecedented move, shutting down the whole 
system, hard to find in any other transit system in America, 
the FTA, which claimed authority, overruling the NTSB by the 
Secretary of Transportation, you were not there?
    Ms. Flowers. That is correct, sir.
    Mr. Connolly. And we're supposed to have confidence in your 
ability, while you're lecturing Maryland, D.C., and Virginia to 
get their act together in the talk, you're nowhere to be seen 
on the day in question when we're trying to deal with a major, 
imminent, potentially life-threatening safety issue?
    Ms. Flowers. Would you like to know what we did?
    Mr. Connolly. Well, I'd like to know where you were on the 
16th before you tell me what you did.
    Ms. Flowers. Okay. On March 16, we were working with WMATA 
over the telephone, talking to them about what they were doing. 
We did oversight of their inspection the night before, we 
talked to them. And we used the information to verify what they 
were doing. And we also are now conducting our own blitz of the 
system, of their tracks.
    Mr. Connolly. I'm sure it gave great comfort to Metro that 
you were verifying over the phone what they were doing.
    My time has expired. Thank you for your indulgence, Mr. 
Chairman.
    Mr. Mica. Thank you. Mr. Meadows yields me 15 seconds just 
to say that, Mr. Connolly, they had between a half a billion 
and three-quarters of a billion dollars sitting in the bank to 
make the repairs that Ms. Flowers or FTA and Mr. Hart said were 
necessary last year after somebody died and we told them to do 
something about it and held a hearing. So it's not a question 
of money. It's a question of management and somebody doing 
something. And let me yield back to Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank each of you. 
We've got two different issues here. One is a safety and a 
deferred maintenance issue. The other is a management issue. 
And so I want to try to address both of those. Mr. Hart, I 
think we have some pictures here that maybe we can put up. If 
you can explain to the committee the pictures, I guess, of that 
particular picture with--I guess they're jumper cables. Is this 
where the issue is? Now, I need the picture of the jumper 
cables, please, sir. Right there on the--right there in front 
of you. That one.
    Mr. Hart. Yes. These are the cables that provide propulsion 
power to the third rail. So this is--we are talking about 
serious electricity here. What we saw was that there is a 
fiberglass sleeve around there that needs a sealing sleeve on 
the fiberglass boot. Let me call it a boot. The fiberglass boot 
needs a sealing sleeve to keep stuff from coming inside where 
the connection is.
    Mr. Meadows. So basically, an insulator to keep it from 
arcing?
    Mr. Hart. Well, it's an insulator to keep contamination 
from getting into the connection so that--because the 
contamination can form an arcing path to cause short circuits.
    Mr. Meadows. All right. So is this the only place where you 
can have an electrical problem that would create smoke in the 
tunnel?
    Mr. Hart. There are probably a number of other places. The 
insulators, for example, if they get contamination down in the 
insulators, then the electricity can arc from the third rail 
down to the ground. So there are several places where it can 
happen. What we saw in L'Enfant Plaza was specifically from the 
cables.
    Mr. Meadows. All right. So if we're going to inspect this 
and if we're really looking--and I see the general manager is 
wanting to step in. Go ahead.
    Mr. Wiedefeld. Just to clarify, that is one potential 
source of arcing. The cables also, if they are in the wrong 
direction, if they are laying on the ground, that is a--it's 
built on a floating slab, the rail is, which means it can move. 
And if that cable is laying on concrete and over time that 
rubs, basically it can fray it and open it that way. So there's 
a series of things that can happen.
    Mr. Meadows. Well, I guess, here's my concern is from what 
I'm coming to understand, that the jumper cables are not the 
only source of potential problem. And yet it appears that when 
we had the inspection, it was a jumper cable-only checklist. 
Who made that decision?
    Mr. Wiedefeld. We made that decision because the issue was 
at McPherson, it was a jumper cable issue. And that's where you 
do get the arcing from. You're going to get it from, in effect, 
some sort of cable situation where, in effect, you have a third 
rail that's steel----
    Mr. Meadows. So, Mr. Hart, would you agree that that is 
adequate enough that if we put in we're only looking for jumper 
cables that that's satisfactory from a safety standpoint?
    Mr. Hart. Our recommendation addressed all cables. Jumper 
cables, power cables. All cables, not just jumper cables.
    Mr. Meadows. All right. So why would we only look at jumper 
cables?
    Mr. Wiedefeld. I think it's a terminology.
    Mr. Meadows. Because that's--well, no, it says right here, 
and, Mr. Chairman, I ask that we submit this for the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Meadows. Because it says ``Only jumper cables shall be 
inspected,'' exclamation point. So, like, don't look at 
anything else other than jumper cables. And if you're saying 
that there are other sources, why would we only look at the 
jumper cables?
    Mr. Wiedefeld. Because I think, again, I think it's a 
terminology issue. Those what you see there with the big orange 
boots are what people generally are calling jumper cables. But 
if you recall, when we came out the next day and we showed the 
one cable that was frayed, that wouldn't have been termed a 
jumper cable. That's where you have two pieces of steel that 
there's a space of an inch, in effect, so that you can--so with 
temperature changes it can move. And that is a much smaller 
cable that goes back. Didn't have the big orange boots. So we 
weren't just looking at the orange boot cables. We were looking 
at any cable----
    Mr. Meadows. So what you're saying is the language on here 
only looking at jumper cables really didn't mean to only look 
at jumper cables. It meant to look at anything electrical. So 
your sworn testimony here today is they looked at all 
electrical----
    Mr. Wiedefeld. They looked at electrical cables that closed 
any gap between third rail.
    Mr. Meadows. All right. So let me go on a little bit 
further.
    Mr. Evans, your solution, and I've read a few of the 
articles, and I hear your testimony today. So let me make sure 
I understand. You need another $1.2 billion in operating 
revenue. Is that correct? Is that your testimony?
    Mr. Evans. We need----
    Mr. Meadows. 300,000 times 4, $1.2 billion.
    Mr. Evans. Right now we have $900 million. We need another 
$300 million from the Federal Government for $1.2 billion in 
operating on the one side. And----
    Mr. Meadows. So you're only saying an increase of $300 
million----
    Mr. Evans. Correct.
    Mr. Meadows. --but you want the Federal Government to pay 
the $300 million?
    Mr. Evans. Yes.
    Mr. Meadows. So why, if you're dividing the others by three 
or four, why would it only come from the Federal Government? Is 
that budget autonomy?
    Mr. Evans. Right now, each jurisdiction pays approximately 
$300 million.
    Mr. Meadows. Right.
    Mr. Evans. The Federal Government is a full partner. A 
fourth partner that pays zero.
    Mr. Meadows. Well, according to your testimony, we 
actually, I guess, when we originally put in this system, we 
were more than a full partner. We paid two-thirds of the 
capital improvements originally. Is that correct?
    Mr. Evans. Yes, you did. That's right. The Federal 
Government paid two-thirds of the cost to build this system. On 
the operating side, though, they do not contribute and had 
never contributed.
    Mr. Meadows. All right. And so you're saying it needs 
another $18 billion, with a B, in terms of----
    Mr. Evans. $18 billion, yes. Capital money.
    Mr. Meadows. So let me make sure I understand this. Your 
plan to fix this system is to give WMATA $18 billion and close 
down the system for 6 months in order to have a good system. Is 
that the best----
    Mr. Evans. No. That's not my plan.
    Mr. Meadows. Well, I mean, it's $18 billion. And I guess 
you were quoted as saying: Close it down for 6 months, which 
when I heard that, I could think of traffic jams for 6 months, 
and it didn't sit well with me.
    Mr. Evans. Congressman, let me just say this: If you want 
me to come up here and give you good news, I'll be glad to do 
that. But if you want to hear what we really need to do, that's 
the only reason I'm here. And if you give me 30 seconds, I'll 
just tell you why I'm here.
    Mr. Meadows. Okay. Where's the $18 billion going to be--you 
know, if you want to get testy about it, Mr. Evans, let me just 
say, I've got the numbers. And if you're looking at increasing 
the operating revenue the way that you're talking about, you 
become the most expensive operating system, more expensive than 
Chicago, more expensive than New York, more expensive than 
Pennsylvania. So why would you have the highest operating cost 
out there? I mean, what would justify that? So if you want to 
look at numbers, let's look at them.
    Mr. Evans. We're the second largest transit system in 
America. So that justifies----
    Mr. Meadows. Well, New York is higher. Chicago is higher.
    Mr. Evans. And if you have the opportunity to travel the 
world as I have, you go to Beijing, Shanghai, Paris, London, 
Moscow, and see a world-class system. This system has become an 
embarrassment in the Nation's capital. And we are all in this 
together, and----
    Mr. Meadows. Those are all Communist countries, Mr. Evans.
    Mr. Evans. Paris, London, Communist countries?
    Mr. Meadows. You said Beijing, Shanghai, and Moscow.
    Mr. Evans. I said Beijing, Shanghai, Moscow, Paris, and 
London. They are capital cities. And if we want a world-class 
system like they have, the federal governments in those 
countries pay for all of the system. All I'm asking from you is 
$300 million, which is your fair share, given the fact that we 
transport 50 percent of your workforce every day. Do you want 
them to be safe? Do you want this to be reliable? Or do you 
just want to leave here like we did in 2005 and do nothing? And 
if we do that, next time something happens, I'm blaming it on 
you guys. Because we need your help.
    Mr. Meadows. Sir, you're the one that's been on the board. 
So how can you blame us? You're the ones making the decisions.
    Mr. Evans. I've been on the board a year. When I left this 
place 15 years ago----
    Mr. Meadows. Since this has all happened.
    Mr. Evans. It is not operating well now. And we need the 
resources in addition to the wherewithal.
    Mr. Meadows. When can you get this committee a full 
breakdown of how that money will be spent?
    I yield back.
    Mr. Evans. Within a week. But you will never--let me just 
say this: You're never going to have a better chance. You have 
a chairman and myself who has done this for years. You have a 
general manager who is as capable as anybody has ever been. If 
we leave here today and do nothing, and, Mr. Chairman, when 
you're saying you're not going to give us a dime, really? Is 
that what you're saying? We need resources for this system. 
This is your system. This is my system. You're going to put 
your kids, your parents, on this system that is a system like 
it is today? Really? Give me a break. We really have to step 
up. I have reports here from 2010, 2011, 2005, 2005, where we 
have done nothing. We cannot leave here and do nothing again.
    Mr. Mica. I thank the gentleman and I will put in the 
record the balances that have been unexpended which have been 
verified by you all that are available. It was a half a billion 
almost last year. 485,783 as of 2 weeks ago. So the money is 
there. The management's lacking.
    Mr. Connolly, you're recognized.
    Mr. Connolly. Thank you. I'm going to yield to my good 
friend, Eleanor Holmes Norton, while reserving my 5 minutes. 
Thank you.
    Ms. Norton. I thank my friend. As to who needs Metro and 
who ought to pony up, just let me say that when Metro shuts 
down, the Federal Government shuts down. And we've had evidence 
of that through the gazoo recently. So just try getting along 
without Metro, I'll say to my colleagues, if you want a Federal 
Government at all.
    I just want to clarify what Mr. Evans says, because it was 
perfectly true. The pension liability was pre-home rule 
liability. So it wasn't the District of Columbia's liability at 
all. It's liability because of the Federal Government didn't 
give us control over our own local jurisdiction, and, 
therefore, it was due then and they had to pay it. As for--the 
Federal Government gave D.C. not one thin dime. It does--did 
agree to pay for State functions, because the District is the 
only city that has any responsibility for State functions. So 
just clarifying, I agree with what Mr. Evans has said.
    Now, look, I want to focus on the fact that for the first 
time in its history, as I understand it, this system, Metro, is 
doing short-term borrowing in order to get operating funds. 
Isn't that true, Mr. Wiedefeld?
    Mr. Wiedefeld. Yes, it is.
    Ms. Norton. And you have a rollover of this borrowing of 
about a half a billion dollars at this point. Isn't that true?
    Mr. Wiedefeld. In that range, yes.
    Ms. Norton. So I want everybody to understand what this 
means. You're borrowing just to keep the system running. And 
we've got to face this fast. Now, on top of that, Ms. Flowers, 
WMATA was put under handwritten drawdown restrictions. That is 
to say, to get any of the Federal money due you, you've got to 
turn in by hand the voucher, in effect. Now, look, I don't have 
any problems with that because of what FTA found in terms of 
controls. And so, I understand it, in the beginning, when I've 
been having written correspondence with FTA because it looks 
like we are through this process until we get to validation.
    So it looks like you have done your due diligence. But in 
the process, and this is why I'm talking about going forward, 
in the process, you have so delayed WMATA getting funds due it 
that it has had to go and do short-term borrowing, from bad to 
worse. That is why I have asked for another form of monitoring. 
I don't care what it is, just so it is streamlined and doesn't 
leave WMATA waiting 10 or more days to get money that the 
Congress has already allocated to it.
    Have we got a monitoring system that will allow them to do 
some form of technical drawdown, rather than the hand drawdown 
given the fact that you've gotten through all of the controls, 
except waiting for it to be validated? I'm not asking for no 
monitoring. Do you understand? I'm just asking that you not 
throw this system deeper into debt than they already are, 
because if they're borrowing just to keep the operation going, 
that looks like what we usually see when somebody's about to go 
out of business.
    Mr. Wiedefeld. If I could just clarify, it's on the capital 
side, not the operating side. It's on capital funds is what 
we're talking about.
    Ms. Norton. My understanding was that for the first time 
you had borrowed--I mean, you're always borrowing--I'm talking 
about short-term funding, Mr. Wiedefeld.
    Mr. Wiedefeld. No, it is. It's short-term funding, but it's 
for the capital program, because we don't have the electronic--
what's called ECHO, the electronic ability to bring down the 
dollars.
    Ms. Norton. But you've not done short-term borrowing 
before?
    Mr. Wiedefeld. Not that I'm----
    Ms. Norton. As far as I'm told, never in the history. So 
whatever it goes to, they're rolling it over. They can't pay 
it. So I'm trying, for short term, a way to get to partial 
solution, short term, here's the money the Federal Government 
says we owe you. How close are we getting to a streamlined 
approach, Ms. Flowers?
    Ms. Flowers. We've been working close with Mr. Wiedefeld to 
go through a validation process. And I think we are getting 
closer.
    Ms. Norton. When do you think--I understand this is costing 
them money, interest. So I think it's a perfectly valid 
question to say give us a date since, they've done everything 
you said do except have it validated when the--when they can 
get their money in the old fashion--or the new fashion way. 
Excuse me. You know, when will that be, Ms. Flowers? And when 
can you get me a date on that?
    Ms. Flowers. I'm going to defer to Mr. Welbes, who's been 
working with WMATA and our region to work on this restricted 
drawdown process.
    Mr. Welbes. Congresswoman Norton, over the last 2 years, we 
paid $845 million to Metro. And Metro brings us their request 
for payment. As long as they have----
    Ms. Norton. Sir, I asked you a very specific question. My 
time is running out. What--when will they get off of this 
short-term--I'm sorry, this--these restrictions that are 
putting it more heavily into debt?
    Mr. Welbes. So we're doing testing and validation. We just 
agreed in the last month to the testing and validation plan. 
And in the coming months, we'll make sure that Metro's engaged, 
doing the financial activities that we requested in our 
oversight review. But during 2016, it is possible, if Metro 
fulfills the requirements, that they could move off of 
restricted drawdown, but it will be up to Metro.
    Ms. Norton. I'm going to ask you to submit to the chairman 
within 30 days a date where you--proposed date when you think 
that WMATA will no longer be put on these kinds of restrictions 
that keeps it from getting money owed it.
    I want only to say to my good friend, Mr. Evans, this 
notion about, which I would certainly agree with, to create a 
dedicated funding source, it's become a mantra. I'm asking you, 
Metro, somebody, put a proposal on the table. Nobody is going 
to do anything about dedicated funding until somebody just puts 
something on the table for others to react to. I think that 
would move the ball along.
    And I thank you very much, Mr. Chairman.
    Mr. Mica. I thank the gentlelady. We've exhausted the 
Republicans on our side. So I'll yield to Ms. Comstock, and 
then we'll go to Mr. Connolly.
    Mr. Connolly. Mr. Chairman, I didn't know it was that easy 
to exhaust the Republicans.
    Mrs. Comstock. I'm still here, Jerry.
    Mr. Mica. You got this one, even with all my Italian 
energy. Go ahead.
    Mrs. Comstock. Thank you, Mr. Chairman. After seeing a 
little bit of the back and forth here, one of the things I'd 
like to recommend to all of my colleagues here is to focus on 
our new general manager here, who has really set out some good 
things that we all can agree on. So we can--there'll be time 
later for some of the food fights and some of the things we've 
seen here. But I think where we need to focus right now is on 
what Mr. Wiedefeld has focused on. And I think a lot of our 
colleagues, on a bipartisan basis, agree on that. So I would 
encourage everybody as we go forward on this, let's work on all 
the things we agree on first before we start any of these 
fights.
    And in that effort, I wanted to ask Mr. Wiedefeld on--and I 
appreciate what Mr. Evans said about you as capable as anyone 
who has ever been here. And you certainly demonstrated that 
from the beginning as we have been talking about this. You 
cited that over 10 years, there have been no significant 
reductions in force, resulting in redundant positions among 
back office staff that should be abolished. What can we do to 
immediately abolish some of those? Because some of those huge 
costs that we're going to have on pensions are going to be 
coming from some of these redundant positions that are 
unnecessary.
    So I appreciate that you're trying to, you know, minimize 
the problem here. What do you need from us, if anything from 
us, that we can help you immediately remove those redundant 
positions, put people where they need to be, and fire the 
people, and I appreciate my colleague, Mr. Connolly, talked 
about firing. When you fire somebody for direct wrongdoing, you 
know, there's some savings in our pension costs right there. 
Because I think the taxpayers thinking that those people who 
caused all these problems and for 10 years didn't do anything, 
and have ignored all of these things over and over, those 
people need to be fired and we need to be taking the action 
that helps you, you know, change this system, the cultural 
change, I think you are very committed to, that we see in your 
positive action here.
    And I would very much like to work with you and my 
colleagues on that type of positive action as quickly as 
possible if you can identify some of those ways to make it 
quicker.
    Mr. Wiedefeld. I have already done--you know, started 
moving that direction. I have done some personnel changes. I've 
reorganized the agency. And I've made it very clear to 
everyone, particularly the all at-will employees that basically 
this is the way we operate. And if you don't understand that, 
then it is not a good fit for either one of us. So that is 
progressing. I'm not going to get into individual personnel 
issues here. But that is progressing.
    Mrs. Comstock. And I would mention, I know in the audit, 
the HR department seemed to be one of the departments that 
isn't working very well. And then, again, basic things like the 
maintenance department, and I quote from the report, they 
didn't have simple things like repair kits with necessary parts 
for common repairs, like things that you have--the maintenance 
office, whoever's been running the maintenance office that 
didn't go and put those repair kits, that they have to be told 
build repair kits with necessary parts for common repairs, you 
know, any auto body shop knows that, and that the person who is 
running this----
    So let's--I think it's very helpful if we see people like 
that moving on and putting capable people to do those kind of 
basic repairs, HR people who understand how to move these 
people along and get them--because the audit really shows the 
problem is execution. We all have identified the problems, and 
now you've been brought in to execute. And you set out some 
really good ideas on executing. But if you're not able to move 
the deadwood out, then that execution is going to be a real 
problem.
    So let us help you move that deadwood along. I think you've 
seen today, bipartisan agreement on the faster you can get that 
deadwood out, we're going to be able to help you a lot more. 
And--but if you have a little--anything more.
    Mr. Wiedefeld. No, I totally agree. What I'm telling you is 
I'm moving in that same direction right now.
    Mrs. Comstock. Thank you. And since I have a little bit of 
time left, then, on the HR front, have there been any changes 
at this time in the human resources department?
    Mr. Wiedefeld. Actually, yes, in terms of, one of the 
issues that I had is a lot of these different parts of the 
agency were buried under operations, for instance. So I've 
pulled that all apart and I have created a--basically an 
internal support group that has auditing, procurement, which is 
the other issue tied to the maintenance issue, HR, and labor, 
and have that under a separate group that basically is under a 
new leadership right now. And they're digging into all those 
issues, both on what we learned from the consultant and what we 
bring to the table.
    Mrs. Comstock. Okay. Because I know we had asked some 
questions, and I don't want to--you know, I appreciate some of 
the people we've been waiting to get responses from, I think, 
are in the HR area. We've been asked, you know, basic 
information like absentee reports, because some of the concern 
that we heard were a lot of absentee, and as a result, then 
people get a lot of overtime. That overtime is added to their 
pension. So if you have this whole little system that can all 
work, Hey, I'll take off today. You can take off next week. We 
both get overtime and we both get a bigger pension and get to 
retire earlier, that's not a good game that we need to be 
playing. And I think a lot of those problems can be worked out 
there if we have a really good HR department. And I--since I 
haven't gotten the answers on that, I'm assuming that's a--
continues to be a problem. So thank you for addressing that.
    Mr. Meadows. [Presiding.] I thank the gentlewoman for her 
insightful questions, and certainly for the answers. The chair 
recognizes the gentleman from Virginia, the ranking member of 
the Subcommittee on Government Operations, Mr. Connolly.
    Mr. Connolly. I thank the chair. Mr. Evans, Chairman Mica 
talked about $783 million as if you've just--you're sitting 
around watching soap operas and eating bon bons, and allowing 
$783 million to just accumulate. And you got plenty of money. 
Isn't there a difference between, say, obligated funds and 
expended funds?
    Mr. Evans. Yes, there is, Congressman. And what the 
chairman was referring to, I don't know if he knew that, was 
obligated funds. They're already obligated. They're not 
anything new that we can use for other things.
    Mr. Connolly. How much of the 783, either you or Mr. 
Wiedefeld, is, for example, for the purchase and delivery and 
ultimate expenditure for new 7000 Series cars from Kawasaki?
    Mr. Wiedefeld. I don't have those dollar figures off the 
top of my head. But the point that you're making is a lot of 
those are tied to very big purchases, whether it's bus 
purchase, 7,000 series. And some of the issues that we've had 
with the cash flow of that is when the tsunami hit Japan, that 
impacted Kawasaki, who was the provider of that. And that 
slowed that up.
    In a major bus purchase that we had there was--a company 
went out of business. So that slowed those dollars up. So 
that--and I think FTA can attest to that. That is--I think 
we're in the range of what other transit----
    Mr. Connolly. I just would urge you quickly to help dispel 
this myth of you're sitting on a lot of capital you don't know 
what to do with. It is actually good and prudent management not 
to pay your bills until the product or service has been 
delivered, and has met your specifications with respect to 
quality, especially given the fact that the reason we're 
purchasing new rail cars is, among other reasons, safety. The 
new cars aren't going to pancake like Series 1000 cars, which 
affected lives in the first fatal accident. And so I just--I 
think we have to really get the data out there, you know, so 
that we dispel this myth that you're sitting on a mountain of 
capital. Why should we give you more?
    Mr. Evans. Mr. Connolly, that's so important too. Because 
this is obligated money. We need new capital money. I mentioned 
the Rosslyn bottleneck. Right now we can run 23--20 trains in 
an hour through the Rosslyn bottleneck. The capacity is going 
to have to be 40 trains an hour if we're going to make this a 
reliable system. We are going to have to build a new tunnel. 
And it's going to cost billions of dollars to do it. Otherwise, 
we are going to have a system that is not reliable and it's 
going to take forever to get anywhere. This is just one example 
of many that we need these capital dollars for.
    Mr. Connolly. Okay. And by the way, another thing, Mr. 
Wiedefeld, when you're getting back to us on explaining the 
783, it would also be useful to know how we compare to other 
transit systems that receive Federal grants in terms of spend-
down rate. Because I think we're in the same ballpark. I don't 
think we're particularly different. And that might come as news 
obviously to some of my colleagues.
    At this point, I'm going to yield to my friend, Mr. Delaney 
from Maryland, the balance of my time.
    Mr. Delaney. Thank you. So the scale of this failure at 
Metro is almost unimaginable. And it's become a national 
embarrassment. And I agree with my colleagues that it's a 
management problem. And I agree with Mr. Evans that the 
system's been underinvested in and it continues to be 
underinvested in. But what we haven't talked at all about is 
the board and the governing system. Because you can only blame 
management for so long. Ultimately a board, a fiduciary board, 
is responsible. And this enterprise has had a fiduciary board 
for a long time. If this was any other enterprise other than 
Metro, the board would have been dismissed, discharged 
completely and new boards would have been appointed.
    Mr. Evans, do you believe that the board of Metro, if you 
had to certify, like public companies have to do with, for 
example, their audit committee chair, that the board members 
have deep experience in operations and financial management of 
sophisticated transit systems, or have tremendous experience in 
creating systems of accountability and metrics for their 
management teams? Do you feel like you could certify that the 
individuals who sit on this board, and I look at some of the 
board committees, they have a safety committee. Obviously, they 
completely failed. There's a finance committee. Complete 
failure. Customer service committee. Complete failure. There's 
a real estate committee. Maybe they did their job. I can't 
really speak to that.
    But it just seems to me that, at some point, we have to ask 
hard questions about who's actually on the board of this 
organization? What is their experience? Are they just people 
who, you know, get these positions because of political 
paybacks and they know nothing about transit or transportation 
or operations? I mean, why aren't we getting the absolute best-
proven executives in the Washington region, people who run some 
of the most successful enterprises. You know, not small little 
enterprises, but big enterprises.
    Do we have a governance problem that goes to the board? Do 
the people on the board know what they're supposed to do?
    And are they the kind of people where you would put up 
their resumes and say, There's no better person in the country 
for, you know, who's chairing my finance committee. There's no 
better person in the country chairing my customer service 
committee. There's no better person in the country chairing my 
safety committee. Is that the kind of board that is governing 
this? Or is that really the problem?
    Mr. Evans. No, that is not the type of board that is 
governing this. So let me address this quickly. We have a 16-
member board which is way too big. Organization should have 16 
members like the Kennedy Center. People raise money, but they 
don't run an organization. When I was on last time we had 12, 
it was too big. And then they added four Federal 
representatives couple years ago. It is unwieldy, to say the 
least.
    Mr. Delaney. But your average corporate board is probably a 
dozen board members?
    Mr. Evans. That's just too many. And secondly, Congressman, 
your point is well taken. No. People don't come there with 
enormous experience. Some do. We have one or two people who 
have worked in the transit industry for a while. But most 
people don't. And they're there for a whole variety of reasons. 
Sometimes they're there because nobody else would come, believe 
it or not. And so that's what you have as a board.
    Secondly, it's never been clear what the board does. In the 
past, this committee has criticized the board for being too 
involved in the general manager's business. Then there was an 
opportunity the board was not at all involved in----
    Mr. Delaney. But that's--sorry to interrupt, but that's why 
you need a good board.
    Mr. Evans. Correct.
    Mr. Delaney. Right? Because a good board knows what their 
job is. Right? They look at the CEO, or the manager of the 
enterprise. And they say, These are your goals. If you don't 
reach them, we're going to make a change. Right? And they have 
committees that ask the right questions and make sure things 
are happening. I mean, it seems to me as part of whatever has 
to be done to fix this system, which will involve more capital, 
there has to be a serious conversation about completely 
reconstituting this board and making sure these are not just 
political appointees who may have very good community 
relations, and I'm not trying to underestimate that. But 
actually getting some people sitting around the table who know 
what they're doing. Right? Because we can't be sitting here 
looking at pictures of jumper cables, right, in Oversight. I 
mean, there has to be a management structure and a governing 
structure that works. And this is--you know, we talk about 
management, we talk about underinvestment, but, I mean, one of 
the biggest embarrassments, in my opinion, you could have in 
this town is to have been on this board of this thing for the 
last 10 years because you've utterly failed.
    Mr. Evans. And let me just point out to you, I have with me 
one of my many reports. January 7, 2011, Transforming 
Governance of the Washington Metropolitan Area Transit 
Authority. This is a report on how we should completely redo 
the board, 2011, 5 years ago, and nothing happened. And so your 
point is absolutely well-taken. But the problem is you have 
four jurisdictions. Nobody's willing to give up anything. And 
so anytime we bring up this idea of changing the board, 
everybody backs away from it. So you're right. We need to do 
something here. Because this is----
    Mr. Delaney. So whatever this Congress does to address some 
of these problems, I think we should be putting on the table 
ensuring that real board members, who--again, under Sarbanes-
Oxley, if you run a public company, and you're the chair of the 
audit committee, the board has to certify that the person is an 
expert at audit committee-related matters for whatever that 
company does. And we need that kind of certification for these 
board members so we can get real governance of this----
    Mr. Evans. Mr. Congressman, I'll say this: Can anybody up 
here name the four Federal board members?
    Mr. Delaney. Well, I just looked them up. So I--and I 
looked at their backgrounds. And admirable people who have done 
good things in the community, but I would not--if I to certify, 
the question I asked you, I could not certify that any of these 
people are experts, being a steward and a fiduciary of the 
Federal Government's money, the State of Virginia's money, the 
State of Maryland's money and the money of the District of 
Columbia.
    Mr. Connolly. Reclaiming my time, Mr. Chairman, which has 
long ago expired, the gentleman from Maryland makes a very good 
point. But I would caution my colleagues that Federal law 
cannot dictate who is on the board of Metro, nor can Federal 
law tell the paying jurisdictions who they get to appoint to 
Metro. If Federal law wants to do that, Federal law has to pay 
the bills. And that was the point I made earlier. We are AWOL. 
We don't pay an operating subsidy. And, therefore, we must 
tread lightly in telling Virginia, Maryland, and D.C. who and 
what will serve on the board. And that is something we're going 
to have to grapple with. Because this is not a Federal entity.
    Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman. And the chair now 
recognizes the gentleman from Virginia, Mr. Beyer, for 5 
minutes.
    Mr. Beyer. Thank you, Mr. Chairman. Mr. Wiedefeld, there's 
a recent story in the Post summarizing how the Blue Line riders 
have felt for years about the way they've been treated compared 
to riders in the rest of the system. And obviously, my friend, 
Chairman Evans' comments about closing the Blue Line for 6 
months perhaps got even people more excited and upset. But they 
do have legitimate complaints. And a lot of it has to do with 
the capacity of the Rosslyn tunnel, a major choke point. But 
what can we do now before we get all this additional 
infrastructure money to help those Blue Line riders?
    Mr. Wiedefeld. I am taking a look at that to see if there's 
other ways we could provide that service, you know, and how 
we're managing the three lines there. So it's a technical 
exercise, because anytime you do that--so I will be coming out 
in the near future with that.
    Mr. Beyer. All right. Thank you. Chairman Evans, you made a 
very strong case for a Federal operating subsidy, the $300 
million, to match what Maryland, D.C., and Virginia put in 
right now. But you also mentioned the search for a regional 
funding source, $1 billion a year. What did you have in mind? 
Or do you have any models out there?
    Mr. Evans. Yes. What we need to do is in the region, and 
other States have dedicating funding sources for their 
transportation systems. They use a sales tax. Some use a gas 
tax, a combination of the two, a property tax. But no other 
transit system is operating in a multi-jurisdictional area. 
That, therein, is the problem. So Virginia, Maryland, and D.C. 
have to agree on what kind of a funding source, tax, fee, 
whatever you want to call it. And is it gas? Is it sales? Is it 
income? Is it property? Or a combination of those? And we have 
just not been able to do it, which is why suggested, I was just 
reading history, the Tennessee Valley Authority, where in the 
Roosevelt era, the Federal Government superimposed on 
Tennessee, Arkansas, and everybody this taxing district used to 
build the dams for the Tennessee River. I haven't done anything 
beyond that. But I'm frustrated with the local jurisdictions' 
inability to deal with this. And so I go back to the Federal 
Government. Maybe they can help us out. My whole point is this: 
We need help at Metro. And if we don't get it, if we don't get 
it, we are going to be in serious trouble beyond where we are 
now.
    Mr. Beyer. Thanks. General Manager Wiedefeld, The 
Washingtonian ran this amazing story back in December about, 
quote, ``The Infuriating History of How Metro Got So Bad.'' And 
a lot of the story focused on WMATA's real operations control 
center. And basically, air traffic control system for the whole 
system. And they talked about an environment where training 
materials were out of date, factually incorrect. Place that was 
hostile to new hires. Place where control center workers 
routinely worked 12-hour days in order to get the overtime. And 
the NTSB preliminary report was very critical of the way the 
control center responded at that smoke incident back in January 
2015. So all these things wrap around culture. What can you 
tell us to give us some hope that you're making changes within 
the control center, and a culture that's responsive and 
performs well, executes well?
    Mr. Wiedefeld. Right. There's two aspects to it. One is, I 
mentioned I did a reorganization. So I changed how that 
reporting relationship goes so that I can get more focus on 
that part of the operation. As Ms. Flowers mentions, the FTA's 
there on a regular basis making sure that they're playing by 
all the rules and, you know, following all the procedures 
they're supposed to do. The larger issue that you talk about, 
it's not confined just to the rail operation center, which is 
this cultural issue that was brought up in The Washingtonian 
Magazine. What I have found is a strong disconnect between 
management and the frontline employees that has, you know, 
evolved over years where people feel, in effect, 
disenfranchised. They don't feel a part of the business. They 
don't feel the pride in the business. They don't feel the 
commitment in it.
    And, so, that's what I am focusing on to get the frontline 
people and the managers to understand that if they do not tap 
into that resource, you know, their job is to bring that 
resource up, not push it down. And if they can't do that, then 
they--it gets back to Congresswoman Comstock's issue. If they 
cannot do that, then they cannot work here. Because that is 
what we need to get this organization in the direction we need 
to get it in.
    Mr. Beyer. Great. Thank you. Thank you and good luck.
    Ms. Flowers, in Mr. Hart's NTSB report, you know, we--
obviously, NTSB had recommended the railways take over the 
safety aspect. Secretary Foxx gave it back to FTA. I'm quoting. 
He says, the FTA--this is from NTSB. ``The FTA has very limited 
ability to oversee the WMATA effectively. It has no prior 
experience in direct safety, oversight, or as an SSOA. Has 
limited staff to carry out the functions. Doesn't have the 
authority to levy civil or individual penalties,'' et cetera. 
How do you respond to all these, sort of documented criticisms 
of why you're not the right agency to do these safety 
oversights?
    Ms. Flowers. Well, first of all, we're on the job and doing 
the job. And, you know, we do have enforcement power. Most 
importantly, we have the ability to direct WMATA to take 
action, corrective action, when there are safety infractions. 
We also have the ability now to withhold funds, as much as 5 
percent to 25 percent of the funds, to compel them to take 
corrective action.
    On the experience side, we feel we have the technical 
competence. We have put together an organization that has 
experience from FAA and FRA. And we have the resources. 
Secretary Foxx took a one DOT approach. He leveraged resources 
from across the Department to augment the oversight effort. We 
have people working with us from FRA, NHTSA, Motor Carriers, 
and the Office of the Secretary.
    I know that NTSB is concerned about whether we can sustain 
this. But we do have additional budgetary authority to augment 
our safety operations. And we think that the response was the 
appropriate risk. We needed to act quickly. FTA had the 
statutory authority, and FRA did not have the statutory 
authority at this time to oversee commuter rail. I mean, FRA 
had the statutory authority for commuter rail but not for urban 
public transit.
    Mr. Beyer. Thank you very much, Mr. Chairman.
    Mr. Meadows. I thank the gentleman. The chair recognizes 
the ranking member for a followup question.
    Mr. Connolly. I'm just going to ask one question and then 
yield to Mrs. Comstock.
    Ms. Flowers, you just told my colleague, Mr. Beyer, that 
you have the statutory authority to even withhold funds, 5 to 
15 percent. And, in fact, you have threatened to do that if the 
three jurisdictions do not form this oversight committee in a 
certain course of time. Is that correct?
    Ms. Flowers. That's correct. One year. February of next 
year.
    Mr. Connolly. All right. Have you taken cognizance of the 
legislative schedules of the two respective states, Maryland 
and Virginia?
    Ms. Flowers. Yes, we have. And what we would like to see 
as--and we're continuing to provide technical assistance and 
work with the three jurisdictions, what we'd like to see is 
this move forward rather than actually take action to withhold 
funds.
    Mr. Connolly. Okay. I support what you're trying to do, and 
I support the pressure you're putting on them. But one little 
word of caution. Be aware of the difference in the legislative 
schedules so that we're not asking them to do something they 
can't possibly do within their legislative calendar.
    Ms. Flowers. And I just want to say we could rather than 
would.
    Mr. Connolly. Okay. Thank you very much. And thank you for 
yielding.
    Mr. Meadows. The chair recognizes the gentlewoman from 
Virginia, Mrs. Comstock, for 5 minutes.
    Mrs. Comstock. Thank you. And I thank the ranking member 
for--as a former member of the Virginia State Legislature, we 
are only there January through February or March sometimes. So 
that had some impact this year also, as we were trying to take 
some action. So thank you. And I also wanted to mention that 
Congressman Wolf had been up here, my predecessor, today, and 
this board--he--I mentioned we were having a Metro hearing. And 
he raised the same issue that Mr. Delaney raised on the board. 
So appreciate the honesty, Mr. Evans, in terms of looking at 
the expertise there, and obviously, there'll be challenges 
there to look at that, but I do agree with Mr. Delaney that 
that needs to be looked at more thoroughly.
    I wanted to, again, return to some of the good management 
ideas I think our new general manager is focused on, just to 
get them on the record here. Because yesterday, you had talked 
about things like looking at Paratransit and how we can save 
money there. And I don't know if maintenance might be an area 
too that can be outsourced. But could you maybe detail, for the 
record, so we have some of these I think good positive ideas 
that again things that we'll probably all share and have in 
common and can improve?
    Mr. Wiedefeld. Sure. Yes. There are a number of things that 
I think that we could do more efficiently by getting out of 
them, to some degree, because it's not core to our mission. So, 
for instance, parking, obviously it does feed our system. We 
have 60,000 parking spaces. But, you know, that's not the core 
thing that we wake up every morning worried about. And I think 
that's an opportunity for private sector to do that, for 
instance. The Paratransit, again, we have a model that, you 
know, has--it's been around for years. But I think in today's 
technology, that there's opportunities to do that to make sure 
that we don't take anything away from any of our customers, but 
actually give them alternatives that, for us, will be cheaper 
and for----
    Mrs. Comstock. And I think yesterday you had cited that the 
average cost for Paratransit is $50----
    Mr. Wiedefeld. Close to $50.
    Mrs. Comstock. And so you were already identifying other 
ways, particularly on short trips where we could save money 
with sort of the on-demand economy and probably be more 
efficient for some of the users.
    Mr. Wiedefeld. More efficient. And right now, you have to 
give a 24-hour notice for your trip. A lot of times you have 
travel with other people. There's other alternatives. You can 
just call up and it can happen very quickly and with just you.
    Mrs. Comstock. We can welcome the Uber economy to Metro.
    Mr. Wiedefeld. Not one vendor.
    Mrs. Comstock. On demand.
    Mr. Wiedefeld. Right. The headquarters building is another 
opportunity, I believe, just in terms of the number of people 
we have there, and do we need that many people in a prime 
location. You know, I--basically I'm looking at that as well. 
On the maintenance side, on the fare collection side, I think, 
again, there's opportunities to--where it makes more sense to 
have other resources applied there, that's what we should do. 
So I'll continue to do that.
    Mrs. Comstock. Thank you. And I really appreciate it and 
just wanted to highlight some of those things. Because I think 
there's been some really good thought that the general manager 
has already put into this where I think we will find a lot of 
common ground, and maybe we can focus on those things first, 
bring the cost down and minimize some of the other problems and 
costs that we're dealing with so we can have a more civil 
discussion on that when we have actually solved a lot of these 
problems, have a very functioning system, and I appreciate your 
taking that approach as you proceed through, so thank you.
    Mr. Meadows. I thank the gentlewoman. Let me follow up a 
little bit on what my good friend, Mr. Connolly, was saying 
with regards to jurisdiction.
    Ms. Flowers, I don't know that you were necessarily the 
best group, and I really care a lot about Secretary Foxx. In 
fact, I consider him a personal friend. I don't know that it 
was necessarily the right decision. But here is my whole point 
on this. Mr. Hart and Ms. Flowers, we've got to get this system 
in a place where you're not at a hearing talking about the 
safety of this system. You know, so while it may be germane 
today, I'm hopeful that in the very near future it will not be 
a discussion that even comes up. You know, we talk about Uber a 
little bit. You know, I've got staff members now taking Uber 
and other forms of transportation to get to work who used to 
take the Metro, just because they can't count on it anymore. 
We've got to stop that. I mean, just pure and simple, we have 
to stop that.
    Mr. Evans, you started out your testimony by talking and 
acknowledging the service that many of us have provided, 
whether it's attending the State of the District meeting as you 
mentioned with me. I want to acknowledge your service, I guess 
it's to Ward 2 and your service there, and certainly say thank 
you. There's no tougher job than local politics. And so I want 
to acknowledge that.
    I guess the fundamental question is how many more hearings 
are we going to have before we fix the problem. You know, this 
now makes my fourth, either hearing or round table or meeting, 
that we've had on a mass transit system that I don't ride, you 
know, that the vast majority of people use here in the Federal 
Government. And whether it's 50 percent or 60 percent. You 
know, even if it's higher than that, we've got to get it right. 
And by getting it right, I need to figure out who's in charge. 
Because is it a 16- or 14-member board? You know, is it the new 
general manager? Is it the coalition of people that put forth 
the people who actually sit on the board? Who's in charge? Who 
owns it?
    You know, Mr. Evans, I think in your written testimony it 
says that you want to make it clear that you don't own the 
Metro and that Paul doesn't own the Metro. But somebody has to 
own the responsibility. And, I guess, that's what I'm getting 
to. Who is it? Who do we hold accountable for a system that has 
deferred maintenance and is not safe? Who is that?
    Mr. Evans. It's myself and Paul. We are the two people who 
are in charge of Metro today.
    Mr. Meadows. Okay. You can't have two leaders. So 
ultimately where does the buck stop?
    Mr. Evans. Paul is in charge.
    Mr. Meadows. Okay. So if Paul makes a decision that the 
board doesn't agree with, what happens to Paul?
    Mr. Evans. We haven't faced that yet.
    Mr. Meadows. But you will. I mean, listen, this is a big 
problem. It's taken 40 years to get here. Deferred maintenance. 
You've been on the board three times? Is this your third tour 
of duty?
    Mr. Evans. Twice. Second tour of duty, yeah.
    Mr. Meadows. All right. So as we look at this, it's going 
to happen where the board thinks one thing and Paul, as the 
expert, thinks something else. So if Paul does that, does he 
get fired?
    Mr. Evans. No. That would be my position as chairman of the 
board, but I am only one board member. But in that situation, I 
would defer to the general manager, who I believe has the 
expertise that the rest of us on the board do not have.
    And so, the close-down is a good example. We discussed it, 
and then I turned to Paul and said, What do you want to do? And 
he said, Close it down. And everybody got on board. And I 
believe that that's how this will operate. Keep in mind, we 
have nine out of 16 new board members. This isn't the board of 
a year ago. And I believe it's a better board than we've had in 
a long time. And we support the general manager. And what he's 
doing he is assessing the system--just to answer your longer 
question. He's going to come back in 6 weeks with a plan to fix 
this. And then we, as a region, are going to have to decide how 
to implement the plan.
    The question you haven't asked me today is about the 6 
months and Blue Line. And so I'll address that. What we have to 
do is come up with a plan to fix this. It's like a bridge going 
into Georgetown that I have to fix. All right? It's about to 
fall down. If we close it entirely, I can do it in 6 months for 
$5 million. If we do half, it's going to take me 18 months and 
$12 million. If I do it a lane at a time, it's even worse. It's 
convenience versus safety versus time versus money. And we as a 
region have to decide that. Closing something for 6 months is a 
bad idea.
    Mr. Meadows. Well, yeah. Let me just jump in here. And so 
let me--if I haven't been clear before, let me be clear. 
Closing the Blue Line for 6 months is not an option.
    Mr. Evans. Not an option.
    Mr. Meadows. Do you understand that?
    Mr. Evans. No, I understand that.
    Mr. Meadows. And you'll take that to the board, that it's 
not an option.
    Mr. Evans. Absolutely. But what we're doing now is also not 
working, which is the other extreme. Three hours at night, and 
on the weekends single tracking. So somewhere between those two 
extremes we have to come up with----
    Mr. Meadows. You know, I'm a numbers guy, and I agree with 
you, because I went through and looked at the traffic and how 
people--and actually had the staff, and they looked at all 
those numbers. And actually, we could close down the Metro on 
the Blue Line maybe at 10 o'clock at night, work all through 
the night, and have it back up by 5 a.m. The next morning. Have 
a normal work period. Do more work on Saturdays and Sundays. I 
mean, I've looked at it. And the number of people that you 
affect is infinitesimal compared to the 200 million that 
travel. So when we make those kinds of statements, I can tell 
you that Jerry and I--and it really affects him. Because I can 
tell you, I'm not going to be getting calls in North Carolina 
about the Metro in D.C. being down. Jerry will. Barbara will. 
And so when that happens is you got to understand that, you 
know, what we endured for 26 hours will be multiplied times 6 
months, it's just not an option. And so, but you made a 
statement, Jack, that you said ``we.'' All right? So is it him 
or is it we? Who's in charge? Because ultimately, what I've got 
to get to is, I want the next person that's sitting here to be 
able not only to certify that it's safe, but they made all the 
instructions. And if they're asking for money that we have 
given them, the additional resources that they need to do that, 
and so you're saying that he can make the tough decisions, and 
if he does, the board's not going to fire him. Or at least you 
as the chairman are not going to recommend that?
    Mr. Evans. That's correct.
    Mr. Meadows. All right. Thank you. All right. So let me go 
to you, Mr. General Manager. As you've looked at this system, 
how much deferred maintenance should have been done that wasn't 
done?
    Mr. Wiedefeld. I don't have a numeric, but I think--again, 
I think the approach is part of the issue, the way we've been 
trying to it, what you just talked about. You know, I just ran 
the numbers. We----
    Mr. Meadows. So how many jumper cables were replaced 
between the death that we had in 2015 and literally, the other 
day when you closed the system down? How many jumper cables 
were replaced?
    Mr. Wiedefeld. The number of the sleeves were 65 percent. 
But, again, that's part of the issue that I've had is we tend 
to do things around a particular issue and not look at this 
thing together. So, for instance, going out and replacing all 
the sleeves on the boots, that was dealing with one issue. That 
was not dealing with the issue of a cable that's lying on the 
ground. That's not dealing with a cable that's lying in 
moisture. That's not dealing with drains that aren't working 
which creates those issues. And that's where we got to come at 
this thing and not just the boot.
    Mr. Meadows. So why would you say that those assessments 
haven't been done? Because when we had an unbelievable horrific 
tragedy that happened, I mean, everybody came. You know, we all 
came to a meeting. I mean, we were determined to get this fixed 
right away and get it done. And yet, what I heard from your 
testimony earlier was that we're going to wait to do another 
mile of tests to figure out--okay. I'm seeing a shaking head 
no. So I must have misheard that.
    Mr. Wiedefeld. That was the cell phone issue. That was a 
cell phone issue.
    Mr. Meadows. Oh, okay. All right.
    Mr. Wiedefeld. That's a totally different issue. No. What 
I'm doing right now, based on what happened 3 weeks ago, is I'm 
looking from L'Enfant Plaza to 3 weeks ago. What did we do? Who 
did what? So I'm going to get to that issue, like what was done 
there? People had to do certain things. And did they do it--did 
they do it--did we do it poorly? What did we learn and then 
what did we put in place and did that occur on the day of--at 
McPherson Square. Then--and so there's three things going on. 
It's what happened in that 14 months? What happened on this 
incident? And then what are we going to do going forward? So, 
for instance, we've already initiated a new team that goes out 
every day basically and looks at the cables. So we weren't 
doing that before. Now we do it, in effect--they do the entire 
system--it takes them a month to do the entire system. So in 
effect, we're doing that every day. We're going out and 
checking that. We weren't doing that before. So I already put 
those things in place. But even that, I'm not sure that's all 
we can do. You know? And that's why it's got to be part of this 
overall plan where we come out and we say, All right. We're 
going to fix the track. We're going to fix the cable. The power 
cables. We're going to fix the drainage system. We're going to 
fix those things as we go out there rather than keep coming 
back and forth and dealing--running off and doing this, running 
off and doing that.
    Mr. Meadows. All right. So how do you respond to the 
criticism that there is a culture within the WMATA family that 
does not really emphasize safety or service? Is there a 
culture? Is that an accurate statement?
    Mr. Wiedefeld. It is.
    Mr. Meadows. Okay. Well, part of fixing a problem is 
recognizing that you have one. And so I would just say thank 
you for your candor and your honesty. Mr. Evans, thank you for 
your leadership on the board. I have a request of the two of 
you, and I'd like you to answer it verbally, if you would. If 
you find that there are board members that are trying to exert 
their influence over the general manager, Mr. Evans, are you 
committed to at least letting either me or the ranking member 
know that that is happening?
    Mr. Evans. Yes, I am. And if I do find that, I will act 
myself, but I will also----
    Mr. Meadows. I believe that. I believe that. And to you as 
a general manager, if you find that there is impediments to you 
getting this restored and up to speed from a safety and service 
standpoint, and that you're getting undue political influence 
from the board, and I use the word ``political'' because there 
will be differences of opinions, are you committed to let the 
ranking member and I and this committee know?
    Mr. Wiedefeld. I will let you know, but it will be after 
the fact, because I won't be here any longer.
    Mr. Meadows. Okay. Well, enough said. Well, I want to thank 
each of you for your testimony. I want to recognize the ranking 
member for a brief closing statement.
    Mr. Connolly. Thank you, Mr. Chairman. And thank you for 
your support and collaboration. I know it's there, even though 
you represent North Carolina, not the National Capital. But all 
of us, as Mr. Evans indicated, must take ownership for the 
National Capital Transit System. You know, you were asking what 
happened, and my legislative director and I came up with a way 
of putting it, which is we have witnessed a maddeningly decade-
long descent into mediocrity, where it's imbued the entire 
workforce. I only work 8 or 9 hours, and if it doesn't get done 
in that timeframe, that's somebody else's problem. Customer is 
unhappy? So what. Answering a question? Not my job. And just as 
Mr. Evans indicated, it's everybody's concern. Within the 
workforce, everything is everybody's job, I mean, at a certain 
level, especially when it comes to public safety. And what 
worries me about this deterioration are the implications of it. 
This is Washington, D.C. This is the capital of the superpower 
elect. It is always going to be a target, tragically, for bad 
people wanting to do bad things. And we cannot allow the 
deterioration of our Metro system to become the soft underbelly 
of any target in the future.
    Tens of thousands of lives every day depend on that safety 
and that reliability in some fashion. And so the stakes are 
even higher, frankly. After tragic attacks in Europe, what more 
do we need by way of warning that this isn't just a nice thing 
to do? This isn't just us being anal retentive because we want 
a cleaner Metro system. It's about the security and welfare of 
our country. And Metro is a very important part of that 
calculus. So it behooves all of us to find swift and 
efficacious solutions to the problems we've identified today. 
And, again, I thank my good friend from North Carolina for his 
indulgence and for his support.
    Mr. Meadows. I thank the gentleman.
    I want to thank each of you. We have a task ahead of us, 
and that task is monumental in ways.
    Mr. Evans, you talked about the fact when it was originally 
put in place it was the modern era of ``The Jetsons.'' I'm old 
enough to remember ``The Jetsons.'' So as we look at that, 
we've gone from ``The Jetsons'' to Mr. Toad's Wild Ride.
    It's time to bring it back to a point of honor and a 
standard of which not only your constituents, but Mrs. 
Comstock's constituents, Mr. Connolly's, and all of those that 
are around can be proud of it. I'm committed to work in a 
bipartisan manner to do that.
    I'm afraid the general manager, it's going to end in your 
portfolio to fix. And so what I would like is within the next 
90 days is an update on what has been done, what is going to 
happen in the next 90 days. I think it would be prudent if you 
have a 90-day update as we look at this. And before we make any 
long-term decisions on what is closed or not closed, I'd ask 
that we really get some input from those who benefit from this 
system each and every day.
    Mr. Meadows. Thank each of you.
    If there is no further business before the committee, the 
committee stands adjourned.
    [Whereupon, at 4:33 p.m., the subcommittees were 
adjourned.]

                                 [all]



</pre></body></html>
